<html>
<title> - THE IMPORTANCE OF HIGHLY QUALIFIED TEACHERS IN RAISING ACADEMIC ACHIEVEMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   THE IMPORTANCE OF HIGHLY QUALIFIED TEACHERS IN RAISING ACADEMIC 
                              ACHIEVEMENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             April 21, 2004

                               __________

                           Serial No. 108-51

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-198                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia
                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 21, 2004...................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     2
        Prepared statement of....................................     4
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce..........................................     5

Statement of Witnesses:
    Bailey, Tracey, 1993 Teacher of the Year, National Projects 
      Director, Association of American Educators................    32
        Prepared statement of....................................    34
    Landgraf, President and Chief Executive Officer, Educational 
      Testing Service............................................    12
        Prepared statement of....................................    14
    McCown, R. Gaynor, Executive Director, The Teaching 
      Commission.................................................     7
        Prepared statement of....................................    10
    Mitchell, Eileen, Teacher, The William T. Davis School (P.S. 
      31), Staten Island, New York...............................    27
        Prepared statement of....................................    29
    Wiener, Ross, Policy Director, The Education Trust...........    19
        Prepared statement of....................................    22

Additional materials supplied:
    American Occupational Therapy Association, Statement 
      submitted for the record...................................    59
    Higher Education Consortium for Special Education, Letter 
      submitted for the record...................................    62
    Norby, Stephanie L., Executive Director, Smithsonian Center 
      for Education and Museum Studies, Smithsonian Institution, 
      Statement submitted for the record.........................    65

 
    THE IMPORTANCE OF HIGHLY QUALIFIED TEACHERS IN RAISING ACADEMIC 
                              ACHIEVEMENT

                              ----------                              


                       Wednesday, April 21, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:37 a.m., in 
room 2175, Rayburn House Office Building, Hon. John Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, Petri, Ballenger, McKeon, 
Castle, Johnson, Ehlers, Isakson, Biggert, Osborne, Musgrave, 
Burns, Miller, Kildee, Owens, Payne, Woolsey, Hinojosa, 
Tierney, Kucinich, Holt, Majette, Van Hollen and Bishop.
    Staff present: Julian Baer, Legislative Assistant; Amanda 
Farris, Professional Staff Member; Kevin Frank, Professional 
Staff Member; Sally Lovejoy, Director of Education and Human 
Resources Policy; Paula Nowakowski, Staff Director; Deborah L. 
Samantar, Committee Clerk/Intern Coordinator; Rich Stombres, 
Professional Staff Member; Ellynne Bannon, Legislative 
Assistant/Education; Alice Cain, Minority Legislative 
Associate/Education; Tom Kiley, Minority Press Secretary; John 
Lawrence, Minority Staff Director; Ricardo Martinez, Minority 
Legislative Associate/Education; Alex Nock, Minority 
Legislative Associate/Education; Joe Novotny, Minority 
Legislative Staff/Education; Lynda Theil, Minority Legislative 
Associate/Education; and Daniel Weiss, Minority Special 
Assistant to the Ranking Member.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order. We're holding 
this hearing today to hear testimony on the importance of 
highly qualified teachers in raising academic achievement. 
Under the Committee rules, opening statements are limited to 
the Chairman and Ranking Member. And with that, if any other 
members have opening statements, the hearing record will remain 
open for 14 days to allow those statements and any other 
extraneous material referenced during today's hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    I want to welcome each of you to our hearing today as the 
Committee continues its focus on the implementation of the 
bipartisan No Child Left Behind Act. Before I begin my opening 
statement, I want to take a moment to congratulate Mrs. Kathy 
Mellor for receiving this year's National Teacher of the Year 
award. Mrs. Mellor, a Rhode Island middle school teacher, 
reshaped the English-as-a-second-language program in her school 
district. And I'd like to congratulate the teachers who've 
received this honor in their individual states, as well.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    The purpose of today's hearing is to discuss the importance 
of highly qualified teachers in improving academic achievement 
for all students--regardless of race, income, geography, 
English fluency, or disability.
    The success of education reform efforts is increasingly 
seen as directly dependent on the quality of classroom 
instruction, and ensuring the quality of America's 3.2 million 
teachers is an essential part of providing an excellent 
education to all of our children. A growing number of studies 
provide conclusive evidence that teacher quality is the primary 
school-related factor affecting student achievement. Students 
who are taught by effective and competent teachers excel 
quickly, while those who are assigned to the least effective 
teachers lag behind and often never catch up.
    Especially troubling is the evidence that disadvantaged 
students whose future depends most on a positive school 
experience are often assigned the least qualified teachers. For 
example, a report from one of our witnesses today found that in 
every subject area, students in high poverty schools were more 
likely than other students to be taught by teachers without 
even a minor in the subjects they are teaching.
    The No Child Left Behind Act asked each state, in exchange 
for billions of dollars of Federal teacher quality aid, to 
develop and implement a plan to place a highly qualified 
teacher in every public classroom by the end of the '05-'06 
school year. States have vast flexibility in defining what 
constitutes a highly qualified teacher, and at a minimum, 
teachers must have full state certification, a bachelor's 
degree, and demonstrate competence in core academic subjects 
they teach. Individual states, not the Federal Government, 
design and implement measures to assess subject matter 
competency, which may include rigorous state academic tests; a 
bachelor's degree in a core academic subject; or the High 
Objective Uniform State Standard of Evaluation or HOUSSE 
procedure for veteran teachers.
    Since No Child Left Behind was enacted more than 2 years 
ago, Congress and the President have continued to provide 
record teacher quality aid to states and local school districts 
at levels far higher than provided prior enactment of the bill. 
Federal teacher quality aid has been increased by more than 35 
percent by this President, who requested nearly $3 billion in 
annual teacher quality funding for states and teachers in his 
'05 budget, compared with just about $787 million provided 
under the previous Administration.
    In addition, the President and Congress have taken numerous 
steps since the enactment of No Child Left Behind to help 
teachers, local education agencies and states meet the law's 
highly qualified teacher provisions.
    In 2003, the House, led by Representative Joe Wilson, 
passed legislation to more than triple the amount of Federal 
student loan forgiveness available to highly qualified reading 
specialists, math teachers, science and special ed teachers who 
commit to teaching in high need schools for 5 years. 
Representative Wilson's legislation, the Teacher Recruitment 
and Retention Act, would increase maximum Federal loan 
forgiveness for such teachers from the current $5,000 per to 
$17,500 per year.
    And the House, led by Representative Phil Gingrey, a member 
of our Committee, also passed legislation in 2003 to strengthen 
teacher training programs at America's colleges. The Ready to 
Teach Act would authorize and strengthen teacher training 
programs under the Higher Education Act to ensure that 
tomorrow's highly qualified teachers are prepared to meet the 
needs of our nation's students.
    To provide further incentives for good teachers to remain 
in the teaching profession, President Bush and Members of 
Congress in 2002 enacted legislation allowing teachers to take 
a $250 tax deduction when they pay money out of their own 
pockets for classroom expenses such as crayons and books. We're 
currently working to expand the so-called ``Crayola credit'' to 
$400 or more hopefully in an upcoming tax bill.
    Recognizing that outdated Federal rules are pushing some 
good teachers out of the classroom, the House last year passed 
legislation authored by our Subcommittee Chairman, Mr. Castle, 
to revamp the 1975 Individuals with Disabilities Education Act 
and reduce paperwork burdens for special ed teachers who are 
striving to meet the No Child Left Behind standards. And the 
bill includes a proposal originally introduced by Congressman 
Ric Keller to reduce paperwork for special ed teachers by 
allowing parents of children with special needs to select a 3-
year IEP for their children instead of an annual one, solely at 
their discretion.
    And last month, the Department of Education provided states 
with new guidance on the highly qualified teacher requirements 
giving additional flexibility to teachers in rural school 
districts; streamlining procedures for veteran teachers to 
demonstrate subject matter competency; and clarifying state 
authority over requirements for science teachers.
    Also, the Department today will announce a new outreach 
initiative to recognize teachers' outstanding accomplishments. 
The four-part initiative includes teacher roundtables, teacher-
to-teacher workshops, research-to-practice summit, and teacher 
updates on the top topics affecting teachers in today's 
classrooms.
    So today, during the course of the hearing, we will examine 
the need for the No Child Left Behind Act's highly qualified 
teacher provisions; review the inherent flexibility under the 
law; and learn more about the efforts to fundamentally upgrade 
teaching as a profession and ensure that teachers have adequate 
subject matter knowledge for the subjects they teach.
    We've got a distinguished panel of witnesses today. I want 
to thank all of them for being here and yield to my friend and 
colleague from California, the Ranking Member of the Committee, 
Mr. Miller.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Good morning. I'd like to welcome each of you to our hearing today 
as the Committee continues its focus on implementation of the 
bipartisan No Child Left Behind Act. Before I begin my opening 
statement, I'd like to take a moment to congratulate Mrs. Kathy Mellor 
for receiving this year's National Teacher of the Year award. Mrs. 
Mellor, a Rhode Island middle school teacher, reshaped the English-as-
a-second-language program in her school district. I'd like to 
congratulate the teachers who received this honor in their individual 
states as well.
    The purpose of today's hearing is to discuss the importance of 
highly qualified teachers in improving academic achievement for all 
students--regardless of race, income, geography, English-fluency, or 
disability.
    The success of education reform efforts is increasingly seen as 
directly dependent on the quality of classroom instruction, and 
ensuring the quality of America's 3.2 million teachers is an essential 
part of providing an excellent education to all our children. A growing 
number of studies provide conclusive evidence that teacher quality is 
the primary school-related factor affecting student achievement. 
Students who are taught by effective and competent teachers excel 
quickly, while those who are assigned to the least effective teachers 
lag behind and often never catch up.
    Especially troubling is the evidence that disadvantaged students, 
whose futures depend most on a positive school experience, are often 
assigned the least qualified teachers. For example, a report from one 
of our witnesses today found that in every subject area, students in 
high-poverty schools were more likely than other students to be taught 
by teachers without even a minor in the subjects they teach.
    The bipartisan No Child Left Behind law asks each state--in 
exchange for billions of dollars in federal teacher quality aid--to 
develop and implement a plan to place a highly qualified teacher in 
every public classroom by the end of the 2005-2006 school year. States 
have vast flexibility in defining what constitutes a highly qualified 
teacher. At a minimum, teachers must have full state certification, a 
Bachelor's degree, and demonstrate competency in core academic subjects 
they teach. Individual states--not the federal government--design and 
implement measures to assess subject matter competency, which may 
include rigorous state academic tests; a Bachelor's degree in a core 
academic subject; or the high, objective, uniform state standard of 
evaluation--or HOUSE procedure--for veteran teachers.
    Since No Child Left Behind was enacted more than two years ago, 
Congress and President Bush have continued to provide record teacher 
quality aid to states and local school districts, at levels far higher 
than provided under President Clinton. Federal teacher quality aid has 
been increased by more than 35 percent under President Bush, who 
requested nearly three billion dollars in annual teacher quality 
funding for states and teachers in his 2005 budget request to 
Congress--compared with just $787 million provided under President 
Clinton's final budget.
    In addition, President Bush and Congress have taken numerous steps 
since the enactment of the No Child Left Behind Act to help teachers, 
local educational agencies, and states meet the law's highly qualified 
teacher provisions.
    In 2003, the House, led by Representative Joe Wilson, passed 
legislation to more than triple the amount of federal student loan 
forgiveness available to highly qualified reading specialists and math, 
science, and special education teachers who commit to teaching in high-
need schools for five years. Representative Wilson's legislation, the 
Teacher Recruitment and Retention Act, would increase maximum federal 
loan forgiveness for such teachers from $5,000 to $17,500.
    The House, led by Representative Phil Gingrey, also passed 
legislation in 2003 to strengthen teacher-training programs at 
America's colleges. The Ready to Teach Act would reauthorize and 
strengthen teacher-training programs under the Higher Education Act to 
ensure tomorrow's highly qualified teachers are prepared to meet the 
needs of the nation's students.
    To provide further incentives for good teachers to remain in the 
teaching profession, President Bush and congressional Republicans in 
2002 enacted legislation allowing teachers to take a $250 tax deduction 
when they pay money out of their own pockets for classroom expenses, 
such as crayons and books. Republicans are currently working to expand 
this so called ``Crayola credit'' to $400 or more.
    Recognizing that outdated federal rules are pushing some good 
teachers out of the classroom, the House in 2003 passed legislation 
sponsored by Representative Mike Castle to revamp the 1975 Individuals 
with Disabilities Education Act and reduce paperwork burdens for 
special education teachers, who are striving to meet No Child Left 
Behind's high standards. The bill includes a proposal originally 
introduced by Representative Ric Keller to reduce paperwork for special 
education teachers by allowing parents of children with special needs 
to select a three-year Individualized Education Program--or IEP--for 
their children instead of an annual one.
    Last month, the Department of Education provided states with new 
guidance on the highly qualified teacher requirements giving additional 
flexibility to teachers in rural school districts; streamlining 
procedures for veteran teachers to demonstrate subject matter 
competency; and clarifying state authority over requirements for 
science teachers. Also, the Department of Education yesterday announced 
a new outreach initiative to recognize teachers'' outstanding 
achievements. The four-part initiative includes teacher roundtables, 
teacher-to-teacher workshops, a research-to-practice summit, and 
teacher updates on top topics affecting teachers.
    During the course of today's hearing we will examine the need for 
the No Child Left Behind Act's highly qualified teacher provisions; 
review the inherent flexibility under the law; and learn about efforts 
to fundamentally upgrade teaching as a profession and ensure teachers 
have adequate subject matter knowledge for the subjects they teach.
    We have a distinguished panel of witnesses for today's hearing. I 
would like to thank you for your appearance before the Committee and I 
look forward to your testimony.
                                 ______
                                 

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. Thank you, Mr. Chairman. You have covered much 
of what our hopes and aspirations are for this legislation, for 
this hearing, and I'm going to ask unanimous consent to put my 
remarks in the record, my written remarks into the record, and 
just make a couple of comments.
    One, I agree with much of what you have said. This hearing 
for me is very exciting. A number of years ago, I offered an 
amendment that succeeded in Committee that said we would have a 
qualified teacher in every classroom. And when it got to the 
floor, I lost that vote 434 to 1. And we've come a long time 
since that vote where it is now the law that we will have a 
qualified teacher in every classroom. And this morning we're 
having a hearing about what we can do to support that idea in 
the law, how we can improve upon it. And there is now general 
recognition, as you have pointed out, that the single most 
important factor that we have in student achievement is the 
ability and the talent and the qualifications of that teacher.
    And having recognized that, and to now continue the poor 
distribution of highly qualified teachers is something that we 
can no longer accept, because we have knowledge of the 
detriment to our children of doing that, and we now must make 
every effort to support getting all of our teachers to the 
level of professional development so they can meet the mandate 
of the state law.
    I do differ with you on a couple of points. I do not 
believe that we have provided the adequate funding to do this, 
and it's a point that I would like to raise later with the 
panel on the manner in which we have provided the funding where 
maybe we can get some help with the funding that we have 
already provided. And I am also concerned that the 
Administration has not been helpful in implementing the so-
called HOUSSE process for experienced teachers, and that we've 
got to make sure that we do not drive these individuals from 
the field in a premature fashion.
    So I look forward to the testimony of the panel. I think 
you've assembled a great panel, and thank you very much for 
holding this hearing.
    Chairman Boehner. Let's now introduce all of our witnesses. 
Our first witness today, Ms. Gaynor McCown. Ms. McCown is 
currently the Executive Director of The Teaching Commission, an 
organization dedicated to keeping the best and brightest in the 
teaching profession, and to placing a highly qualified teacher 
in every classroom.
    Prior to her current position, Ms. McCown served as a 
Senior Vice President at Edison Schools, and earlier as the 
Senior Vice President for Education and Workforce Development 
at the New York City Partnership and Chamber of Commerce.
    She has classroom and policy experience, having both taught 
in public high school in New York City and having served in the 
Clinton White House as a senior policy analyst and adviser and 
special assistant to the Secretary of Education, Richard Riley.
    Now with that, let me yield to Mr. Holt for the 
introduction of our second witness.
    Mr. Holt. Thank you, Mr. Chairman. And on behalf of the 
Committee, I'm pleased to recognize and welcome Kurt Landgraf, 
who is the President and Chief Executive Officer of the 
Educational Testing Service, as he has been for the past three-
and-a-half years.
    I think everyone on the Committee recognizes the leadership 
role of ETS as the world's largest private educational testing 
and measurement organization and a leader in the true sense--
that's a word that's been overused--but a leader in educational 
research with the organization developing and administering 
millions of tests worldwide.
    Mr. Landgraf comes with a bachelor's degree in economics 
and three master's degrees, and I will ask to put the details 
or some of the details of his distinguished biography in the 
record.
    I would like to call attention to a few things, though, 
from his background. He's worked in the pharmaceutical 
industry, but he's also throughout his career been an 
instructor in sociology and labor relations and was President 
of the National Consortium on Graduate Studies for Minorities 
in Sciences and Engineering, the GEM program, an important 
program, and I think it says a lot about Mr. Landgraf's 
orientation.
    He's published articles on topics such as minority access 
to higher education. He's focused a great deal of his attention 
on teacher quality and certification, you know, what do we mean 
by teacher quality? How can we know a qualified teacher when 
see one, and how can we make more of them?
    He's paid a great deal of attention to technology in the 
classroom and is, along with ETS, committed to making No Child 
Left Behind work. Today I think he'll be talking to us about 
the need for standards as well as the need for mentoring and 
induction and emphasis on both methods and content for making a 
good teacher.
    And finally, and the reason I particularly wanted to 
introduce him, since he comes from my district, I wanted to 
point out what a good neighbor ETS is to the people of central 
New Jersey, what a civic leader the organization is and the 
members of the organization are in the local communities in 
central New Jersey. And we all appreciate that very much.
    Mr. Boehner. Our third witness today will be Mr. Ross 
Wiener. Since July of 2002, Mr. Wiener has been the Principal 
Partner and Policy Director at The Education Trust, a national 
organization focused on eliminating the achievement gaps in 
public education, and someone I would add for all of our 
Members, someone who has worked with both sides of the aisle 
and been a great resource to this Committee.
    Prior to his position at The Education Trust, Mr. Wiener 
worked in the Civil Rights Division at the U.S. Department of 
Justice as a trial attorney handling educational opportunities 
cases. And while working there, Mr. Wiener twice received the 
Civil Rights Division's Special Achievement Award.
    He also has earlier experience working for the United 
States Court of Appeals in the First District, the Office of 
the Deputy Attorney General at the Department of Justice, and 
the United States District Court for the District of Maryland. 
Welcome.
    Then we will hear from Ms. Eileen Mitchell. Ms. Mitchell is 
a fifth grade teacher, a math specialist, at Public School 31, 
the William T. Davis School, located in Staten Island, New 
York. She has been teaching at the school for 9 years and also 
coaches high school track for the district. Ms. Mitchell earned 
her undergraduate degree and master's degree from Staten Island 
College.
    And then we will hear from Mr. Tracey Bailey. Mr. Bailey is 
currently the Director of National Projects with the 
Association of American Educators, a professional association 
which assists teachers with professional development and with 
issues in the classroom. Mr. Bailey recently served as a member 
of the U.S. Department of Education's Teacher Assistance Corps, 
a group of educators assigned with assisting states in 
understanding and implementing the highly qualified teacher 
provisions in No Child Left Behind.
    In 1993, he had the honor of being selected as National 
Teacher of the Year. In addition to being a science teacher, 
Mr. Bailey has overseen the Florida charter school program and 
has served as the Teacher Liaison and State Coordinator for the 
Florida Department of Education.
    For all of you who have not testified, the lights in front 
of you will be green for 4 minutes, yellow for a minute, and 
then red. That means you should be somewhere close to being 
finished, but we're pretty easy here, so.
    [Laughter.]
    Chairman Boehner. We're more interested in what you have to 
say than worried about the lights.
    So with that, Ms. McCown, you can begin.

STATEMENT OF R. GAYNOR McCOWN, EXECUTIVE DIRECTOR, THE TEACHING 
                 COMMISSION, NEW YORK, NEW YORK

    Ms. McCown. Thank you. On behalf of The Teaching 
Commission, I want to thank Chairman Boehner for inviting me 
here today. I'm honored to have the opportunity to speak before 
you and the rest of the Committee. The Teaching Commission was 
established by Lou Gerstner, who is a former chairman of IBM. 
It is a nonpartisan group of business executives, former 
Governors, a teachers union president, and leaders in 
philanthropy and education.
    The goal of The Teaching Commission is to fundamentally 
upgrade the quality of teaching in the United States by 
changing the way that teachers are trained, assessed, supported 
and compensated.
    The Commission's report holds that quality teachers are the 
critical factor in helping young people overcome the damaging 
effects of poverty, lack of parental guidance and other 
challenges. The effectiveness of any broader education reform, 
including standards, smaller schools and choice, in our view is 
ultimately dependent on teachers in the classroom.
    The United States has entered the 21st century as an 
undisputed world leader. That's the good news. The bad news is 
that the Nation will not continue to lead if we persist in 
viewing teaching, the profession that makes all other 
professions possible, as a second-rate occupation.
    Top quality teaching fosters high student achievement. High 
achievers can harness their talents and energies to become 
successful contributing citizens. Nothing is more vital to our 
future than ensuring that we attract and retain the best 
teachers in our public schools.
    As Kati Haycock, the Director of The Education Trust, 
points out, ``A decade ago...we believed that what students 
learned was largely a factor of their family income or parental 
education, not of what schools did. But recent research has 
turned that research upside down. What schools do matters 
enormously, and what matters most is good teaching.''
    In a study led by Eric Hanushek of Stanford University's 
Hoover Institution, the most effective teachers were found to 
boost their pupils' learning by a full grade more than students 
taught by their less successful colleagues. Similarly, a study 
of Tennessee students by William Sanders and June Rivers 
reveals that the chances for fourth graders in the bottom 
quartile of performance to pass the state's high-stakes exit 
exam were less than 15 percent if the students had a series of 
poor teachers. And I know that many of you know this, but it 
happens that children who are in poor areas and in urban areas 
have more than their fair share of poor teachers.
    The proven value of excellent teaching, in other words, all 
but demolishes the idea that socioeconomic status is the most 
important determinant of what kids learn.
    Many teachers are working incredibly hard to succeed, but 
their effectiveness is often undermined by inadequate, one-
size-fits-all compensation, flawed preparation, ineffective 
leadership and poor working conditions.
    The nation, as you all know, has moved forward to set 
standards for what students must know and to hold schools and 
young people accountable for student performance. But how can 
we hold students accountable for performance unless they have 
the teachers they need in order to succeed?
    We say that quality teaching matters, but we treat quality 
teachers as if they don't.
    In an attempt to remedy these problems, the Commission has 
put forth four recommendations, and I'd like to go over those 
briefly.
    One is compensating teachers more effectively. Money does 
matter. All we have to do is look at the countless teacher 
surveys and the large numbers of teachers who flock to affluent 
suburbs where pay is significantly better than in urban 
schools.
    The Teaching Commission also understands, however, that 
simply raising salaries for all teachers will not in and of 
itself raise student achievement. Therefore, in calling for an 
increase in base compensation, The Teaching Commission also 
urges a far-reaching break with tradition: a salary scheme that 
is also commensurate with excellence. That is, paying teachers 
more for high performance, as measured by fair evaluations and 
clear evidence of improved student learning.
    The Commission recommends that some version of value-added, 
a method used to measure gains in student performance, 
including student achievement, be used to move in this 
direction.
    Further, district schools and unions should agree to 
establish career advancement paths that offer teachers 
increasing levels of responsibility and compensation as their 
skills and effectiveness grow.
    And then finally, the Commission thinks that there should 
be differentiated pay for individuals who teach subjects that 
are hard to find individuals to teach, like math and science, 
and also individuals who choose to go into hard-to-serve areas.
    The second main recommendation that the Commission has put 
forth is bolstering accountability in teacher education. 
College and university presidents must revamp their teacher 
education programs and make teacher quality a top priority.
    The Commission also recommends that the Federal Government 
be prepared to withhold funds from colleges and universities 
that fail to show the effectiveness of their teacher 
recruitment and preparation programs.
    The third, strengthening state teacher licensing and 
certification requirements. States must improve or overhaul 
their licensing and certification requirements. The Teaching 
Commission calls on Governors and state education departments 
to ensure that every individual who wants to become a teacher 
passes a rigorous test of both content and essential skills. At 
a minimum, this will require raising the passing score on 
existing certification exams. The Commission also calls for 
streamlining the process.
    I haven't set a very good example here, but I'm going to be 
done in just a second. Empowering school leaders as CEOs is our 
final recommendation, and that is that principals should have 
the ultimate authority to decide who teaches in his or her 
school. But with that authority they should also be held 
accountable--and I know some of my other colleagues will talk 
about this--for mentoring and induction programs, and the 
Commission believes that is very important that those 
responsibilities be devolved to the school.
    In closing, The Teaching Commission is not going measure it 
success based on these recommendations that are included in 
this report. What we hope to measure our success on is the 
effectiveness of bringing these ideas to the Federal, state and 
local levels.
    Finally, I want to just leave you with a quote from Lou 
Gerstner: ``If we don't step up to this challenge of finding 
and supporting the best teachers, we'll undermine everything 
else we're trying to do to improve our schools. That's a 
conscious decision that would threaten our economic strength, 
political fabric and stability as a nation. It's exactly that 
clear cut.''
    Again, Chairman Boehner, thank you very much for having me 
here today, and thank you to the rest of the Committee.
    [The prepared statement of Ms. McCown follows:]

    Statement of R. Gaynor McCown, Executive Director, The Teaching 
                               Commission

    On behalf of The Teaching Commission, I want to thank Chairman 
Boehner for inviting me here today. I am honored to have the 
opportunity to discuss Teaching at Risk: A Call to Action, the report 
released by The Teaching Commission on January 14th 2004.
    The Teaching Commission, established by Louis V. Gerstner, Jr., the 
retired Chairman of IBM, is a non-partisan group of business 
executives, former governors, a teachers-union president, and leaders 
in philanthropy and education. Our members include: Ken Chenault, 
Chairman and CEO of American Express; Sandra Feldman, President of the 
American Federation of Teachers; Former Governors Roy Barnes; James 
Hunt; Frank Keating and Richard Riley; Beverly Hall, Superintendent of 
the Atlanta Public Schools; Scott Painter, High School Physics Teacher 
and Teacher of the Year in Atlanta; Barbara Bush and Vartan Gregorian, 
President of the Carnegie Corporation of New York.
    The goal of The Commission is to fundamentally upgrade the quality 
of teaching in the United States by changing the way that teachers are 
trained, assessed, supported, and compensated.
    The Commission's report holds that quality teachers are the 
critical factor in helping young people overcome the damaging effects 
of poverty, lack of parental guidance, and other challenges. The 
effectiveness of any broader education reform--including standards, 
smaller schools, and choice--is ultimately dependent on the quality of 
teachers in the classroom.
    The United States has entered the 21st century as an undisputed 
world leader.
    That's the good news.
    The bad news is that the nation will not continue to lead if we 
persist in viewing teaching--the profession that makes all other 
professions possible--as a second-rate occupation.
    Top-quality teaching fosters high student achievement--and high 
achievers can harness their talents and energies to become successful, 
contributing citizens. Nothing is more vital to our future than 
ensuring that we attract and retain the best teachers in our public 
schools.
    As Kati Haycock, Director of The Education Trust, points out, ``A 
decade ago...we believed that what students learned was largely a 
factor of their family income or parental education, not of what 
schools did. But recent research has turned these assumptions upside 
down. What schools do matters enormously. And what matters most is good 
teaching.''
    In a study led by Eric Hanushek of Stanford University's Hoover 
Institution, the most effective teachers were found to boost their 
pupils'' learning by a full grade more than students taught by their 
least successful colleagues. Replacing an average teacher with a very 
good one, Hanushek and his coauthors concluded, nearly erased the gap 
in math performance between students from low-income and high-income 
households.
    Similarly, a study of Tennessee students by William Sanders and 
June Rivers reveals that the chances for fourth-graders in the bottom 
quartile of performance to pass the state's high-stakes exit exam in 
ninth grade were less than 15 percent if the students had a series of 
poor teachers. But the chances for students from the same background 
who had a series of good teachers were four times as great, or 60 
percent.
    The proven value of excellent teaching, in other words, all but 
demolishes the notion that socioeconomic status is the most important 
determinant of what kids can learn.
    Many teachers are working incredibly hard to help children succeed. 
But their effectiveness is often undermined by inadequate, one-size-
fits-all compensation, flawed teacher preparation, ineffective 
leadership, and poor working conditions.
    These systemic problems prevent teachers from achieving their goals 
and mire educators and their students in the quicksand of the status 
quo.
    Our methods of teacher preparation and licensure are often marked 
by low standards, while teacher induction is too haphazard to ensure 
that new teachers have the knowledge, skills, clinical experience, and 
support they need to succeed. Universities often derive considerable 
income from teacher preparation and professional development programs 
without providing the ongoing help that novice and experienced teachers 
need.
    Meanwhile, low, lockstep pay undermines the prestige of the 
profession and the ability to renew and replenish the field. Cumbersome 
and constantly delayed school hiring practices in our largest cities 
scare off the best applicants. Equally significant, principals and 
teacher leaders rarely get a chance to work together to build the 
instructional teams that schools need to reach challenging academic 
goals.
    The nation has moved forward to set higher standards for what 
students must know and to hold schools and young people accountable for 
performance. But how can we hold students accountable for results 
unless they have the teachers they need in order to help them meet 
these standards?
    Our current education system has few ways to build on teacher 
success or to use teacher evaluation and compensation in ways that will 
improve student performance.
    Effective teachers who dramatically raise student achievement and 
who make other teachers better through their knowledge, leadership, and 
skills are treated exactly the same as those who make no positive 
difference in their classrooms.
    We say quality teaching matters, but we treat quality teachers as 
if they don't.
    In an attempt to remedy these problems, The Teaching Commission 
offers four closely linked recommendations that would help to ensure 
the resources, training, leadership and support that teachers need to 
be successful in helping students achieve.
    Specifically, the plan included in The Teaching Commission report 
includes:
    1.  Compensating Teachers More Effectively. Money does matter! All 
we have to do is look at the countless teacher surveys and the large 
numbers of teachers who flock to affluent suburbs where pay is 
significantly better than in urban public schools. Simply put, 
broadening and strengthening the pool of people who are attracted to 
and remain in teaching will require paying salaries that come closer to 
what talented college graduates can earn in other professions.
         The Teaching Commission also understands, however, that simply 
raising salaries for all teachers will not, by itself, raise student 
achievement. Therefore, while calling for an increase in base 
compensation, The Teaching Commission urges a far-reaching break with 
tradition: a salary scheme that is commensurate with excellence. That 
is, paying teachers more for high performance, as measured by fair 
evaluations and clear evidence of improved student learning.
         While the specific details of any compensation system are best 
determined by individual states, districts, and schools, The Teaching 
Commission believes that all performance incentives should be large 
enough to influence behavior. The pay-for-performance system also must 
provide frequent and comprehensive individual teacher evaluations, 
including assessments of student achievement and other teacher skills, 
such as lesson planning and classroom instruction and management.
         The Commission recommends that some version of the ``value-
added'' method be used to measure gains in student performance and that 
additional compensation for individual teachers be ultimately based on 
performance, including student achievement. However, districts or 
states may want to use a team approach that rewards all teachers in a 
specific subject matter, grade, or school for overall gains in student 
achievement.
         Further, districts, schools, and unions should agree to 
establish career-advancement paths that offer teachers increasing 
levels of responsibility and compensation as their skills and 
effectiveness grow. Teachers who serve as mentor or master teachers 
would be required to demonstrate highly accomplished teaching, 
including continued improvement in student performance, in order to 
maintain their positions.
    2.  Bolstering Accountability in Teacher Education. Colleges and 
university presidents must revamp their teacher education programs and 
make teacher quality a top priority. The Teaching Commission calls on 
the presidents of all American colleges and universities to make a 
personal and institutional commitment, including resources, to tackle 
the problem of unskilled teachers.
         Ensuring that the best and brightest college graduates are 
encouraged to teach in public schools--and that they receive high-
quality academic training--must be among the top priorities of college 
and university presidents. That means raising standards for entry into 
teacher preparation programs, beefing up the academic content of those 
programs while ensuring a connection to real practice, and promoting 
teaching as an exemplary career path for new graduates who wish to 
become engaged citizens. And it means measuring results in order to 
ensure that teacher education programs are doing their job.
         The Commission also recommends that the federal government 
should be prepared to withhold funds from colleges and universities 
that fail to show the effectiveness of their teacher-recruitment and 
preparation programs.
    3.  Strengthening State Teacher Licensing and Certification 
Requirements. States must improve--or overhaul--their licensing and 
certification requirements. The Teaching Commission calls on governors 
and state education departments to ensure that every individual who 
wants to become a teacher passes a rigorous test for both content and 
essential skills. At a minimum, this will require raising the passing 
score on existing certification exams. It should also entail replacing 
low-level basic competency tests with challenging exams that measure 
verbal ability and content knowledge at an appropriately high level. In 
addition, states need to streamline the cumbersome bureaucracy that 
often surrounds teacher licensure in order to make the profession more 
attractive to a wide range of qualified candidates.
    4.  Empowering School Leaders as CEOs. School districts need to 
give principals ultimate say over personnel decisions, while principals 
must provide teachers with mentoring and ongoing professional 
development known to improve classroom instruction. We call on 
superintendents to ensure that school principals are given the 
authority they need to provide leadership through a coherent academic 
program and the fostering of teaching excellence. Using fair and 
agreed-upon measures of performance, every principal should be given 
the responsibility and authority to hire, fire, and promote teachers. 
Principals should also be held responsible for ensuring that new 
teachers receive structured mentoring, and that all teachers benefit 
from scientifically based professional development opportunities that 
focus squarely on assessing and improving instructional practices and 
thereby raising student achievement. To ensure the effectiveness of 
this support, principals should create school environments that 
encourage teachers to get directly involved in decision making in these 
areas.
    In a study conducted for The Teaching Commission, economist Eric 
Hanushek points out that investing in teaching to address student 
achievement problems will go a long way toward paying for itself. 
Hanushek estimates that significant improvements in education over a 
20-year period could lead to as much as a 4 percent addition to the 
Gross Domestic Product. In today's terms, that would be over $400 
billion, an amount that rivals total current expenditure on K-12 public 
education.
    In closing, The Teaching Commission will not measure its success by 
what it recommends. Its effectiveness will be determined by its ability 
to bring these ideas to life at the federal, state, and local levels.
    The Commission is in the process of building partnerships with 
states, education organizations, policy groups, and college leaders to 
implement its agenda. The Commission is also working on a 
communications and outreach campaign at the national, state, and local 
levels to build political will and encourage support for our 
recommendations.
    Finally, I'd like to leave you with a quote from Lou Gerstner, 
Chairman of The Teaching Commission: ``If we don't step up to this 
challenge of finding and supporting the best teachers, we'll undermine 
everything else we're trying to do to improve our schools. That's a 
conscious decision that would threaten our economic strength, political 
fabric and stability as a nation. It's exactly that clear cut.''
    Again, I want to thank Chairman Boehner and the members of The 
Committee on Education and the Workforce for inviting me here today. I 
appreciate your taking the time to hear about the work of The Teaching 
Commission. I would be delighted to take any questions you might have.
                                 ______
                                 
    Chairman Boehner. Thank you, Ms. McCown.
    Mr. Landgraf, you may proceed.

 STATEMENT OF KURT M. LANDGRAF, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, EDUCATIONAL TESTING SERVICE

    Mr. Landgraf. Thank you, Chairman Boehner. I appreciate it. 
And Congressman Miller, thank you for the leadership--
    Mr. Boehner. You might want to hit your button.
    Mr. Landgraf. Thank you very much for inviting me here 
today, and Congressman, thank you very much for the leadership 
you both have shown in implementing No Child Left Behind, 
probably the most important educational initiative in the last 
200 years.
    Congressman Holt, who has left, I appreciate his 
introduction. As we say in central New Jersey, we're proud of 
Congressman Holt as our congressman, because he is in fact a 
rocket scientist.
    [Laughter.]
    Mr. Landgraf. And to Congressman Castle, who was my long-
time congressman when I was COO of DuPont. I just wanted to 
thank him for being here today.
    I'm here today to talk about No Child Left Behind and 
teacher certification. Let me be very blunt. This is one of the 
most extraordinary opportunities in domestic educational policy 
that this country has ever had. It's an outstanding initiative, 
but it will fail if we do not put the resources and talent 
required in the certification place to ensure at a bottom line 
all children get a qualified, knowledgeable teacher who 
understands their subject matter and understands how to relate 
to children.
    It's a very simplistic equation. No matter what else this 
Congress does, unless we ensure that all children get qualified 
teachers who understand subject matter, we will not improve 
teacher--we will not improve achievement in the school systems, 
and most importantly, we will not make measurable progress in 
reducing the achievement gap that we see so sadly with our 
lowest socioeconomic status cohorts.
    I want to make four recommendations:
    States should reevaluate their teacher licensure programs 
and begin raising their entry standards. It is essential in our 
view that teachers have rigorous, meaningful entry standards 
into the profession.
    All states should establish induction programs for 
beginning teachers. Providing mentoring and support during the 
first years of teaching are essential. The profession of 
teaching is not one where we can afford to have long-term 
training programs to bring people up to excellence. Each kid 
each year has a teacher that makes a difference in their lives.
    Our nation must deploy continuous, high quality 
professional development programs to develop and maintain high 
quality teachers.
    We must place greater emphasis on observing and evaluating 
teacher skills and content knowledge in their actual classrooms 
throughout the courses of their career.
    As I said, nothing in our view is more important than a 
highly qualified, highly motivated, highly compensated teacher 
in the complex matrix of education.
    ETS will release an issue paper, ``Where We Stand on 
Teacher Quality.'' We've made copies available to this 
Committee and also available for anyone else who would like to 
take a look at this.
    We believe that skilled teachers possess four types of 
knowledge and skill:
    Basic academic reading, writing and math.
    Thorough knowledge of the content of each subject they 
teach.
    Both generic and content-specific knowledge about how to 
teach; and
    Hands-on ability and skill to use this knowledge to engage 
students in learning and the master of curriculum.
    ETS, as has been discussed, is a leader in educational 
policy research with over 50 years of experience looking at the 
educational matrix. The conclusions we reach today come from 
that research.
    We also provide a series of products. Most notably for 
members of this Commission, we are the company that provides 
the assessment tool called Praxis, which is used in 39 states 
as the certification tool for entry level teachers. We also 
provide a series of products and services to prepare teachers 
to take the Praxis exam.
    ETS is working on several fronts to raise the standards for 
entering the profession. Most notably, I believe, we are 
cooperating with the National Center for Accreditation of 
Teacher Education (NCATE), to establish a professionally 
recognized and defensible range of common passing scores on 
selected Praxis content knowledge tests. This will make 
institutional accreditation decisions comparable state-to-state 
while recognizing that the demand and supply for teachers is 
different in each locale.
    National benchmarks defined by the teaching profession will 
enable more equitable accreditation decisions and help increase 
the quality of teacher preparation programs.
    To further that end, ETS now has a recognition of 
excellence award, where we provide to those candidates who earn 
high scores in any of our 11 Praxis tests, they will receive a 
certificate from ETS identifying that excellence, and also that 
will be reported on their Praxis report score out.
    We have Praxis assessment development guides that we 
provide to allow teachers a chance to do well on our 
assessments. We have a diagnostic preparation program, and ETS 
importantly supports the concept of alternative roots to 
teaching. This is to encourage talented candidates to enter the 
field of teaching sometimes mid-career.
    Mr. Chairman, I'd like to offer the Committee some policy 
recommendations for improving teacher quality that have emerged 
from the work we are doing at ETS:
    States should reevaluate their systems of teacher 
licensure.
    States should establish induction programs to ensure that 
new teachers are given appropriate mentoring.
    States must deploy high quality professional development 
programs. It's not enough to hire the best. We must develop 
them as we do in all other sectors of our society. And we must 
place greater emphasis on teacher teaching skills. It's not 
enough just to have outstanding concept knowledge and content 
knowledge. You must be able to teach in a real live classroom.
    In closing, let me thank you for being invited today, Mr. 
Chairman. It's a pleasure for ETS to be part of your 
discussions.
    [The prepared statement of Mr. Landgraf follows:]

 Statement of Kurt M. Landgraf, President and Chief Executive Officer, 
                      Educational Testing Service

    Good morning, Chairman Boehner and members of the committee. I am 
Kurt Landgraf, President and Chief Executive Officer of Educational 
Testing Service. ETS is the world's largest private educational testing 
and measurement organization and a leader in education research. The 
company is dedicated to serving the needs of individuals, educational 
institutions, and government bodies in almost 200 countries. My 
testimony today addresses the central role of teacher quality in our 
education system.
    Mr. Chairman, teacher quality is a key element of the No Child Left 
Behind Act, and it is central to our national objective of improving 
student achievement and reducing the achievement gap. As I have said 
before, the goals of the law--raising achievement, closing the 
achievement gap and improving accountability--are the right ones. I 
want to thank both Chairman Boehner and Congressman Miller for your 
strong leadership in education reform, including your keen interest in 
improving the quality of teachers in our nation's schools. Working 
together we can succeed, and ETS stands ready to help.
    Today, I want to share our views on teacher quality and make four 
recommendations to promote quality in the nation's teacher workforce:
    <bullet>  States should re-evaluate their teacher licensure 
programs and begin raising their entry standards, including the passing 
scores required on licensure exams. ETS pledges to work with states to 
reduce differences in passing scores on Praxis tests across states.
    <bullet>  All states should establish induction programs for 
beginning teachers, providing mentoring and support during the first 
years of teaching.
    <bullet>  Our nation must deploy continuous, high-quality 
professional development programs to develop and maintain high-quality 
teachers.
    <bullet>  We must place greater emphasis on observing and 
evaluating teachers'' teaching skills and content knowledge in their 
actual classrooms throughout the course of their careers.
    Improving teacher quality is at the core of the work of ETS. For 
over 50 years we have been striving to elevate the level of teaching in 
our nation's schools. We continue to develop teacher, administrator and 
paraprofessional assessments, produce related professional development 
products and services, and conduct program and policy research on 
education personnel and practices.
    Today ETS will release a position paper entitled Where We Stand on 
Teacher Quality, copies of which we have made available to members of 
the committee. It is the first in a series of issue papers from ETS on 
improving the quality of the teacher workforce in the United States. 
This first paper addresses aspects of teacher quality that we believe 
are fundamental. In the coming months, we will publish papers on 
specific topics related to teacher quality that warrant further 
examination.
Teaching Quality Determines Education Quality
    Mr. Chairman, the quality of teaching determines the quality of 
education. And so we believe that the standards for those who pursue 
this important profession must be high and they must be rigorous--so 
our children are prepared as responsible citizens of a democracy and 
productive contributors to a competitive, global economy. Americans 
support improving the quality of teaching, and, according to the ETS-
sponsored 2002 survey by Peter D. Hart-Robert M. Teeter, A National 
Priority: Americans Speak on Teacher Quality, they view improving the 
nation's schools and improving teacher quality as synonymous.
    Defining Teacher Quality. We know that good teachers produce good 
students. This is the bottom line for effective teachers: their ability 
to improve student learning. Knowing one's subject, knowing how to 
teach it, and actually being able to teach it are fundamental. In fact, 
we suggest that competent, skilled teachers should possess the 
following four types of knowledge and skill:
    1.  Basic academic reading, writing and math.
    2.  Thorough knowledge of the content of each subject taught, 
appropriate to the levels of their students.
    3.  Both generic and content-specific knowledge in areas such as 
child development; classroom management; motivating children to learn; 
interpreting and using assessment data; individualizing instruction; 
aligning content to the state's standards; developing appropriate 
instructional materials; and working with children with disabilities or 
from other cultures.
    4.  Hands-on ability and skill to use the above types of knowledge 
to engage students in learning and mastery of the curriculum.
ETS's Roles in Improving Teacher Quality
    Research. ETS conducts a great deal of policy research. Since 1999, 
we have published five policy research reports on different aspects of 
teaching. (See Appendix.) Our long-term teacher quality agenda focuses 
on understanding the role of teacher quality in closing the student 
achievement gap. Specifically, for the next three years we will 
undertake a systematic investigation of the depth and breadth of 
teacher attrition and teacher quality in hard-to-staff schools, 
including consideration of the most effective district and state 
policies for recruiting and retaining math and science teachers in 
those schools. We will also examine the use of value-added models as 
measures of teacher quality. This research will be helpful in finding 
solutions to the persistent teacher-quality gap.
    As we move forward on this extensive research, we would very much 
welcome input from you, Mr. Chairman, and other members of this 
committee, to ensure that the questions we are asking are useful and 
relevant to the most important teacher quality issues facing this 
nation.
    Products and Services to Enhance Learning. ETS also develops a 
number of products and services to help improve teacher quality. These 
include the Praxis Series: Professional Assessments for Beginning 
Teachers; the Parapro Assessment for paraprofessionals; assessments of 
accomplished teaching; the School Leaders Licensure Assessment; and the 
School Superintendent Assessments. In recognition of the importance of 
professional development throughout teachers'' careers, we developed 
the Pathwise series of professional development materials, workshops, 
training sessions, software, and mini-courses for teachers. We are also 
working with a number of states, including California, providing 
induction programs for teachers during their first years in the 
classroom.
    The Praxis Series can play a crucial role in helping the nation 
move toward the NCLBA goal of a ``highly qualified teacher'' in every 
classroom. It is a system of rigorous and carefully validated 
assessments that generate accurate, reliable information for use in 
licensing decisions. Praxis tests are aligned with and reflect current 
K-12 and teacher preparation standards issued by national discipline-
based associations. Offered in all the content fields covered by state 
teacher licenses, Praxis assessments are designed to evaluate each 
teacher candidate's basic academic skills, subject knowledge, 
pedagogical knowledge, and classroom performance.
    Promoting Quality Across the Continuum. It is important to address 
teacher quality across the continuum of teaching--from preparation 
through professional development and performance evaluation. ETS is 
involved in several key initiatives to help prepare, license and 
support teachers throughout their profession. These are described 
below.
          Raising Standards. ETS is cooperating with the National 
        Council for Accreditation of Teacher Education (NCATE) to 
        establish a professionally recognized and defensible range of 
        common passing scores on selected Praxis content knowledge 
        tests. Doing so will help make institutional accreditation 
        decisions compatible from state to state, while recognizing 
        local demand for and supply of teachers. National benchmarks, 
        defined by the teaching profession, will enable more equitable 
        accreditation decision making and will help to increase the 
        quality of teacher preparation programs.
          Recognizing Excellence. ETS is working on several fronts to 
        help districts, states, education leaders and policy-makers 
        raise the standards for those entering the profession. Our new 
        Recognition of Excellence program, similar to a college honors 
        diploma, recognizes and encourages exceptional individual 
        performance on select Praxis II tests. Candidates who earn very 
        high scores--in the top 15 percent of test takers--on any of 11 
        Praxis II tests will receive a certificate from ETS, and their 
        award will be noted on all Praxis score reports.
          Helping Candidates Succeed. To help teacher candidates 
        prepare for Praxis assessments, ETS has written and by July 
        2004 will have published learning guides for 27 of the subjects 
        we test. Each guide presents a diagram of the critical 
        foundations of the content domain of each test. Our new Praxis 
        Diagnostic Preparation Program provides detailed, customized 
        feedback about candidates'' performance so they may better 
        understand their strengths and weaknesses and focus their test 
        preparation efforts accordingly.
          Expediting Entry. ETS supports the concept of alternative 
        routes to teaching in order to encourage talented candidates to 
        the field, for instance, by reducing unnecessary barriers or 
        expediting the licensing process. While the relative weight 
        assigned to each of the three essential components of teacher 
        licensure--education, experience and examination--may change in 
        order to open the door to prospective teachers, all three 
        components are needed. We believe that states should prescribe 
        a uniform licensure standard for all candidates--a standard 
        aligned to the state's student content standards and to the 
        knowledge and skill requirements the state has defined for 
        teaching various subject areas and grade levels.

Recommendations for Improving Teacher Quality
    Licensure Reform. ETS believes that licensure reform offers great 
potential to enhance the quality of teaching across the country. 
Because state practices and policies vary considerably, a uniform 
national standard does not exist. Here are some proposals:
          Raising the Bar. States should re-evaluate their existing 
        teacher licensure programs and begin raising the standards for 
        entering the profession. Specifically, as The Teaching 
        Commission advised in its report, Teaching at Risk, ``states 
        should agree on a common national standard for subject-area 
        tests and set cutoff scores at a level that requires teaching 
        candidates to demonstrate mastery reflecting at least two years 
        of undergraduate study.''
          Uniformity, Comparability and Portability. The Praxis Series 
        is a national program, with the same tests provided to all 
        states that use them; only the variation in passing scores 
        precludes comparability. Uniform passing scores would enhance 
        portability of scores, and thus candidate mobility and 
        reciprocity across states. We are working with an exciting 
        model for the future: the Mid-Atlantic Regional Teachers 
        Project, a regional collaboration to develop full regional 
        licensure reciprocity, new-teacher mentoring programs, common 
        regional standards for alternative certification, regional 
        pension portability, and a new regional designation of 
        ``Meritorious New Teachers.''
          Streamlining the Process. We agree with calls to streamline 
        the cumbersome bureaucracy that often surrounds teacher 
        licensure in order to make the profession more attractive to a 
        wide range of qualified candidates, as recommended in Teaching 
        at Risk. ETS is collaborating with Teach for America, offering 
        Praxis tests at convenient times to help accelerate TFA 
        candidates'' entry to the classroom. Further, we are offering 
        flexibility in the Praxis registration process to accommodate 
        teachers recruited by The New Teacher Project.
    Induction and Mentoring. ETS urges all states to establish 
induction programs for beginning teachers to provide them with 
mentoring and other support during the crucial first years of teaching. 
Research shows that teachers without such support leave the profession 
at rates almost 70 percent higher than those who receive it. With about 
one-third of new teachers leaving the classroom within three years and 
nearly one-half within five years, failing to provide induction is 
irresponsible. Yet, only 15 states both require and finance mentoring 
programs for all novice teachers, despite the availability of federal 
funds for this purpose.
    Ongoing Professional Development. Continuous professional 
development is critical to developing and maintaining high-quality 
teachers. Data show that without highly skilled support, even those 
with high qualifications will not remain in the profession long. Each 
of the ETS Pathwise products for professional development is designed 
to improve teacher and school leader performance and is grounded in 
what research studies define as ``best practice.''
    Teacher Performance Evaluation. Evaluations of teachers'' 
performance in the classroom occur at many points on the teaching 
continuum, at various times throughout a school year, and for a variety 
of purposes. ETS believes that teachers'' teaching skills and content 
knowledge should be routinely observed in the classroom and evaluated 
throughout their careers. Unfortunately, performance evaluation is 
frequently a missing element of teacher development planning, even 
though when used to assist fledgling candidates it can mean the 
difference between leaving and staying. We urge that high-quality 
performance evaluations be required as a part of licensure and in the 
concept of states'' High and Objective Uniform State Standard of 
Evaluation. We support The Teaching Commission's recommendations for 
individual teacher evaluations for performance pay-determinations. As 
the commission states, such evaluations ``should occur frequently and 
be comprehensive, including assessments of student achievement and 
other teacher skills, such as lesson planning and classroom instruction 
and management.''

Conclusion
    ETS stands ready to work with policy-makers and practitioners to 
improve teacher quality and student achievement. From our perspective, 
strong content knowledge and knowing how to teach are both essential 
qualifications that beginning teachers must have to enter the 
classroom. We believe that teachers who meet high qualifications for 
entering the profession can grow and improve their practice as they 
progress in the profession. We recommend that states work together to 
achieve more commonality and comparability in qualifications for those 
entering and staying in this important profession. In addition:
    <bullet>  States should re-evaluate their teacher licensure 
programs and begin raising their entry standards, including the passing 
scores required on licensure exams. ETS pledges to work with states on 
efforts to reduce differences in passing scores on Praxis tests across 
states.
    <bullet>  All states should establish induction programs for 
beginning teachers, providing mentoring and support during the first 
years of teaching.
    <bullet>  Our nation must deploy continuous, high-quality 
professional development to develop and retain high-quality teachers.
    <bullet>  We should place greater emphasis on observing and 
evaluating teachers'' teaching skills and content knowledge in their 
actual classrooms throughout the course of their careers.
    Mr. Chairman, thank you for the opportunity to present ETS's views. 
I would be pleased to answer any questions the committee may have.

                                APPENDIX

                    ETS Research on Teacher Quality

    ETS has produced five policy research reports on different aspects 
of teaching since 1999. A brief overview of each of these reports 
follows.
    Preparing Teachers Around The World compares and contrasts teacher 
education and certification policies in the United States with those in 
Australia, England, Hong Kong, Japan, Korea, the Netherlands, and 
Singapore. Students in those countries performed as well as or better 
than students from the United States in an international assessment of 
mathematics and science. The study presents the idea of filters, or 
points, along the teacher pipeline where people might be forced to exit 
the profession. Some filters that have come under attack in the United 
States--such as teacher education programs and tenure--are accepted and 
universal practices in some countries. Those same countries have more 
rigorous entry requirements for teacher education programs than are 
generally found in U.S. programs. And while much has been made in this 
country about deregulating teaching as a means of improving the 
teaching force, every high-performing country in this study employs 
significant regulatory controls on its teachers, almost all more 
rigorous than what is found in the United States.
    In How Teaching Matters: Bringing the Classroom Back Into 
Discussions About Teacher Quality, ETS researchers explored the 
possible influence of classroom practices on student achievement in 
mathematics and science. The study found that while teacher inputs, 
professional development, and classroom practices all influence student 
achievement, the greatest role is played by classroom practices, 
followed by professional development that is tailored to those 
classroom practices most conducive to the high academic performance of 
students.
    The effectiveness of institutions that prepare teachers was 
explored in Teaching the Teachers: Different Settings, Different 
Results. The study found that five characteristics of institutions and 
programs were conducive to higher teacher licensure scores: 1) private 
institutions outperformed public ones; 2) universities outperformed 
colleges; 3) teacher education programs with a higher number of 
traditional students outperformed those with fewer such students; 4) 
teacher education programs with ethnically diverse faculties 
outperformed those with overwhelmingly White faculties; 5) institutions 
with large proportions of education majors and minors and large 
proportions of their budgets devoted to teacher preparation performed 
worse than those with small proportions of education majors and minors 
and small proportions of their budgets devoted to teacher education.
    In How Teachers Compare: The Prose Document and Quantitative Skills 
of America's Teachers were studied and compared to the literacy of 
other adults. While teachers display a considerable range of these 
skills (as all groups do), on the whole they perform quite well. Across 
all three National Adult Literacy (NALS) scales--prose, document and 
quantitative, teachers performed significantly higher than the general 
adult population and scored at similar levels to other college-educated 
adults in all three domains.
    The Academic Quality of Prospective Teachers: The Impact of 
Admissions and Licensure Testing examined teachers'' scores on college 
admissions tests and teacher licensure tests. The study found that 
teachers'' academic ability varies widely by type of licensure sought, 
with those candidates seeking licenses in academic subject areas having 
the highest college admissions test scores, and those in non-academic 
fields such as elementary education having the lowest scores.
                                 ______
                                 
    Chairman Boehner. Thank you, Mr. Landgraf.
    Mr. Wiener?

 STATEMENT OF ROSS WIENER, POLICY DIRECTOR, THE EDUCATION TRUST

    Mr. Wiener. Thank you, Mr. Chairman, Congressman Miller, 
and Members of the Committee. Thank you very much for this 
opportunity to testify before you today on the importance of 
the teacher quality provisions in the No Child Left Behind Act.
    For decades, we've known that pubic education has accepted 
high levels of out-of-field teaching as inevitable and has 
systematically assigned its weakest teachers to its weakest 
students. Indeed, no matter the measure of teacher quality, the 
conclusion is always the same. Low income students and students 
of color are pervasively assigned to less qualified teachers 
than their peers.
    This Committee has exhibited great leadership in the effort 
to correct these unfair practices and improve teacher quality 
by including expansive teacher-related provisions in NCLB.
    These provisions represent the support side of this 
ambitious law, the substantive provisions with the most 
potential to actually improve teaching and learning in 
previously low performing schools.
    Before talking directly about the provisions of the law, 
let me remind you of some context. As Congress prepared to 
reauthorize ESEA in 2001, African American, Latino and low 
income high school seniors were graduating with skills in 
reading and mathematics that were virtually indistinguishable 
from other students at the end of middle school.
    These gaps in student skills threaten to undermine the 
nation's economic vitality and have profound moral and civic 
implications for a democratic society that is committed to 
equality of opportunity.
    Your focus on teacher quality is critically important. The 
latest research establishes that teachers vary tremendously in 
their effectiveness, and that the most effective teachers can 
teach even the most disadvantaged students up to high 
standards.
    Congress has responded to this growing knowledge about the 
importance of quality teachers with a number of legislative 
initiatives, but none have been more significant or possess 
more potential for positive impact than the teacher quality 
provisions in NCLB.
    These provisions call on states to accept three fundamental 
responsibilities:
    1. To define what it means to be a highly qualified teacher 
and to adopt the goal of all teachers meeting this standard by 
2006;
    2. To ensure that poor and minority children are no longer 
short-changed in the distribution of teacher talent; and
    3. To report to parents and the public on progress toward 
meeting these goals.
    Despite widespread belief to the contrary, the teacher 
quality provisions in NCLB defer mightily to the states and 
include significant new resources to focus on improving teacher 
quality. These provisions establish a critically important 
principle. If a school has a persistent problem recruiting and 
retaining enough highly qualified teachers, the school district 
and state have a problem too. That's good news for these 
schools and their students.
    It's important to keep in mind that there are no monetary 
penalties or other sanctions for failing to meet the teacher 
quality goals in NCLB. States and districts have pledged to 
work on these issues and to publicly report on their progress. 
But no systems or individual teachers will be punished if the 
goals are not achieved.
    Before highlighting some examples of states and districts 
that are making progress on raising teacher quality, I have to 
mention some of the progress we are not seeing. Unfortunately, 
many states have resisted fully acknowledging the teacher 
quality problems on which NCLB directs the public's attention. 
They've responded to the requirements of the law by adopting 
specifications that are so weak they make it appear as if there 
are no pressing problems on which to focus.
    Compounding this resistance in the field, the U.S. 
Department of Education has not shown sufficient leadership in 
the area of teacher quality. Consequently the teacher quality 
provisions, the provisions that emphatically embrace teachers 
as the most important resource in helping students learn and to 
allocate substantial resources to help them get even better, 
have frequently been cast as anti-teacher. And a law that 
stresses both accountability and support gets misunderstood as 
being focused only on accountability.
    Now let me briefly describe a couple of districts and 
states that have embraced the teacher quality challenge and are 
seeing some promising results. In Philadelphia, Pennsylvania 
NCLB is strengthening the hand of education leaders who are 
willing to tackle the problem head on.
    Because of NCLB, all of Pennsylvania's middle school 
teachers who had not previously demonstrated subject knowledge 
were required to take the state's teacher exam in their 
subjects. The results brought attention to the fact that many 
of Philadelphia's middle school teachers need additional 
assistance and support to strengthen their subject knowledge. 
In fact, more than half of all middle school teachers and 
almost two-thirds of the middle school math teachers did not 
pass the test.
    Philadelphia school district and its superintendent are to 
be commended for their positive and constructive response to 
these results. The superintendent publicly referred to the test 
results as a wake up call. The school district announced a 
major initiative that will provide intensive training and 
assistance to help these teachers. Without the teacher quality 
provisions in NCLB, this important issue would have received 
little or no attention and fewer resources.
    An initiative in Chattanooga, Tennessee is focused on 
helping nine high poverty elementary schools, each of which 
previously ranked among the bottom 20 statewide in terms of 
achievement. The core strategy is a bonus plan that provides an 
extra $5,000 for highly effective teachers who agree to teach 
in the targeted schools, and the results have been impressive.
    High teacher turnover, a perennial problem in these 
schools, has greatly declined. The percentage of third grade 
students reading at grade level increased by nearly 50 percent, 
while the targeted schools have improved much faster than other 
schools both in the district and the state in all five subjects 
tested.
    Other districts are now emulating this example, including a 
program in Mobile, Alabama that is using their Title II NCLB 
funds to pay substantial bonuses to highly qualified teachers 
who agree to work in the lowest performing schools, and 
additional bonuses if these teachers meet ambitious goals for 
raising student achievement.
    Finally, the Ohio Partnership for Accountability is a newly 
formed consortium of all 50 teacher preparation institutions in 
the state, the Ohio Board of Regents and the Ohio Department of 
Education. The Partnership has secured participation of both 
major teacher unions in the state as well as the business 
community. This groundbreaking project would evaluate the 
preparation, in-school support and effectiveness of Ohio's 
teachers using field studies and a comprehensive data base that 
is being built for this purpose.
    There is no question that NCLB has brought added energy and 
urgency to understanding good teaching and ensuring that more 
students get it.
    Finally, I'd like to quickly make three recommendations to 
the Committee. But first, the U.S. Department of Education 
needs to better meet its responsibilities to explain the 
teacher quality provisions, monitor compliance, and share best 
practices.
    This last responsibility is critically important to 
conveying a sense of hope and possibility in the face of 
credits who claim the law's goals are unreachable or 
unreasonable.
    The specific actions that Congress could take include the 
following:
    1. Ask GAO, the Government Accounting Office, to report on 
Title II allocations and programs. Congress has increased 
funding for teaching quality improvement activities by nearly 
50 percent after enacting NCLB, from approximately $2 billion 
to approximately $3 billion for year. The funding formula in 
Title II specifically targets most of this money to the schools 
with the fewest highly qualified teachers.
    However, many public reports suggest that the existence of 
these additional funds is not widely known and are not being 
effectively targeted to the neediest schools. Congress should 
request an accounting on this issue.
    2. Support value-added data systems. Many states had not 
previously collected data on the distribution of qualified 
teachers. This is an imperative first step to identifying the 
most serious problems and tracking progress over time. Better 
information management systems and technology could help states 
identify which of their teachers are most effective and learn 
from them.
    A small investment to help states develop and implement 
better data systems would greatly enhance the knowledge base on 
which states design and evaluate education improvement 
strategies.
    3. Commit additional resources to teacher quality 
initiatives. Federal resources could provide incentives to 
recruit more teachers with strong backgrounds in math and 
science as well as teachers who are skilled at helping students 
with disabilities, teachers with bilingual skills, and more 
underrepresented minorities into the teaching profession.
    Specifically, high poverty schools do not have the 
resources they need to compete for the most qualified teachers. 
States need to step up to their responsibilities on this issue, 
but Congress could help with significant incentives for 
teachers who have proven to be effective and who are willing to 
take on the toughest challenges in the highest poverty schools.
    In conclusion, the teacher quality provisions in NCLB 
represent an important extension of the Federal Government's 
efforts to improve public education, in particular for low 
income and minority students. This focus is based on a strong 
record of research. Moreover, these provisions embody the best 
elements of federalism. They identify a problem of national 
significance, they provide some resources to state and local 
education leaders to focus on these problems, and they call on 
states to address their own unique circumstances with their own 
standards and strategies.
    In essence, getting enough qualified teachers for our 
nation's public schools needs to be everyone's business. By 
placing teacher quality squarely on the nation's agenda, 
Congress has made it more likely that public K-12 systems will 
get the help they need from their state legislatures, 
institutions of higher education, business communities and 
other sectors of society.
    Thank you very much.
    [The prepared statement of Mr. Wiener follows:]

     Statement of Ross Wiener, Policy Director, The Education Trust

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify before you today on the importance of the 
teacher quality provisions in the No Child Left Behind Act (NCLB).
    My purpose today is to emphasize why the subject of teacher quality 
should remain high on your agenda; to provide a report on 
implementation of NCLB's teacher quality provisions, including some 
early images of progress; and to make some recommendations for 
oversight and legislative activities Congress could undertake to ensure 
these provisions are implemented with the greatest possible benefits to 
students.
    For decades, we've known that public education has accepted high 
levels of out-of-field teaching as inevitable, and has systematically 
assigned its weakest teachers to its weakest students. Indeed, no 
matter the measure of teacher quality--certification, major or minor 
in-field, years of experience, performance on certification or 
licensure exams--the conclusion is always the same: low-income students 
and students of color are pervasively assigned to less qualified 
teachers than their peers.
    This Committee has exhibited great leadership in the effort to 
improve teacher quality and correct these unfair practices by including 
expansive teacher-related provisions in NCLB. These provisions 
represent the first major federal commitment to ensuring that all 
students are taught by qualified teachers, and constitute important 
progress in the quest for educational excellence and equality. They are 
the ``support'' side of this ambitious law--the substantive provisions 
with the most potential to actually improve teaching and instruction in 
previously low-performing schools.

                               I. Context

    Before talking directly about the provisions of the law, let me 
remind you of some context. As all of you know, this country made a lot 
of progress during the 1970s and 80s in raising both achievement among 
poor and minority students and narrowing the gaps that separated them 
from other students. Beginning about 1988, however, that progress 
stopped and the gaps between groups started widening again.
    This pattern would have been troubling at any time. But it was 
especially distressing that these gaps began widening at a time when 
education was becoming more important than ever before. In today's 
economy, young workers who don't have strong skills are shut out of 
most jobs that pay a living wage, no matter how hard they work.
    Yet, as Congress prepared to reauthorize ESEA in 2001, African 
American, Latino and low-income high school seniors were graduating 
with skills in reading and mathematics that were virtually 
indistinguishable from other students at the end of middle school. 
These gaps in student skills threaten to undermine the nation's 
economic vitality, and have profound moral and civic implications for a 
democratic society committed to equality of opportunity.

        II. The Focus on Teacher Quality is Critically Important

    When ESEA was originally enacted in 1965, education research seemed 
to suggest that socio-economic status and parental education level had 
an overwhelming impact on student achievement. Conventional wisdom was 
that not much of what schools did affected student achievement.
    By the time Congress reauthorized the law in 2001, however, more 
sophisticated data analysis techniques had established that schools 
make a huge impact on whether students learn, and the single most 
important factor is good teachers. Through value-added analysis 
pioneered by Dr. William Sanders at the University of Tennessee, and 
replicated in districts across the country, we now know that the 
quality of teachers varies tremendously and that the most effective 
teachers can teach even the most disadvantaged students up to high 
standards. \1\
---------------------------------------------------------------------------
    \1\ See Good Teaching Matters: How Well-Qualified Teachers Can 
Close the Gap, Education Trust, Summer 1998.
---------------------------------------------------------------------------
    Analyzing large-scale databases, economists have concluded that 
assigning highly effective teachers to the neediest students could 
virtually eliminate the gaps in student proficiency on state 
assessments of English/language arts and mathematics.\2\
---------------------------------------------------------------------------
    \2\ Steven G. Rivkin, Eric A. Hanusheck, and John F. Kain, 
Teachers, Schools, and Academic Achievement 2002.
---------------------------------------------------------------------------
    I cite this research not to suggest that poverty and external 
factors are irrelevant to student achievement. The fact is some 
students face more disadvantages outside of school than others. The 
tragedy, however, is that public education reflects and actually 
exacerbates these inequalities. Instead of giving more to the students 
who are most dependent on schools for their learning, public education 
consistently gives them the least.
    Nowhere is this practice more damaging than in the inequitable 
distribution of qualified teachers. Yet, despite public commitments to 
ensuring that all students would be educated up to state standards, and 
despite the research establishing that teachers were the key to meeting 
this goal, most States and districts continued to assign their weakest 
teachers to their most vulnerable students.

                III. Teacher Quality Provisions in NCLB

    Congress has responded to the growing knowledge about the 
importance of quality teachers with a number of legislative 
initiatives, including important new teacher-related provisions in the 
Higher Education Act of 1998. But none have been more significant or 
possess more potential for positive impact than the teacher quality 
provisions in NCLB. These provisions call on States to accept three 
fundamental responsibilities:
    <bullet>  to define what it means to be ``highly qualified'' and 
adopt the goal of all teachers meeting that standard by spring 2006;
    <bullet>  to ensure that poor and minority children are no longer 
taught disproportionately by inexperienced, unqualified, and out-of-
field teachers, and;
    <bullet>  to report to parents and the public on progress toward 
meeting these goals.
    Despite widespread belief to the contrary, the teacher quality 
provisions in NCLB defer mightily to the states and include significant 
new resources to focus on improving teacher quality. Essentially, NCLB 
sets up a low-stakes system of goals and public reporting to support 
improvements in teacher quality and in the equitable distribution of 
qualified teachers.
    States are required to adopt definitions of who is qualified to 
teach. In addition to their ordinary requirements (which typically 
include at least a bachelor's degree and certain education coursework), 
NCLB includes only one substantive requirement: demonstration of 
content knowledge.
    <bullet>  States that don't already do so are required by NCLB to 
assess content knowledge of elementary teachers through a state test 
that covers the range of knowledge that the state determines to be 
necessary to deliver the elementary curriculum.
    <bullet>  For middle and high school teachers, NCLB demands that 
states assess subject-knowledge separately in each of the subjects to 
which the teacher is assigned. For secondary teachers who don't have a 
major, advanced degree, or advanced certification in a particular 
subject, states must adopt tests to assess teachers'' subject 
knowledge.
    These are very common sense requirements--teachers can't teach what 
they don't know well.
    Then, based on their own definitions, States were required to 
collect data on the percent of classes throughout the State that were 
taught by highly qualified teachers, and compare the highest-poverty 
districts with the lowest-poverty districts. This data was to form a 
baseline for measuring progress and was supposed to be widely 
distributed to parents, the public and policymakers.
    Most significantly, states and districts have been asked to adopt 
plans for ensuring that all students are taught by teachers that the 
State considers ``highly qualified.'' This provision establishes a 
critically important principle: states and districts are responsible 
for providing all students with qualified teachers. Under NCLB, if a 
school has a persistent problem recruiting and retaining enough 
qualified teachers, then the district and State have a problem too. 
That's good news for these schools and their students.
    Among the teacher quality provisions in NCLB, there is one which 
has been little-noted, but carries more simple power and moral 
authority than all the others combined. It demands that States 
articulate the specific steps they will take to:
        ensure that poor and minority children are not taught at higher 
        rates than other children by inexperienced, unqualified, or 
        out-of-field teachers, and the measures that the state 
        educational agency will use to evaluate and publicly report the 
        progress of the state educational agency with respect to such 
        steps. 20 U.S.C. Sec. 6311(b)(8)(C).
    This provision, and the analogous requirement for school districts 
(see 20 U.S.C. Sec. 6312(c)(1)(L)), are appropriate and reasonable 
requirements for participation in federal programs aimed at helping 
disadvantaged children. After many years of providing federal funds 
without any progress on the unequal assignment of teachers, Congress 
realized that it could not expect improved results for poor and 
minority students unless these students were taught by qualified 
teachers.
    It is important to keep in mind that there are no monetary 
penalties or other sanctions for failing to meet the teacher quality 
goals in NCLB. States and districts have pledged to work on these 
issues and to publicly report on their progress, but no systems or 
individual teachers will be punished if the goals are not achieved. 
There is no incentive under the federal law for states to lower their 
standards or obscure the extent of the problem--unless public reporting 
itself is construed as punitive.

                        IV. Implementation Progress

    Before highlighting some examples of states and districts that are 
making progress on raising teacher quality issues, I have to mention 
some of the progress we are not seeing. Unfortunately, many states have 
resisted fully acknowledging the teacher quality problems on which NCLB 
directs the public's attention. Perhaps because they are worried about 
the political and financial costs of tackling these issues, many state 
education leaders and policymakers have mischaracterized and maligned 
NCLB's teacher quality provisions. They've ``responded'' to the 
requirements of the law by adopting specifications that are so weak 
they make it appear as if there are no pressing problems on which to 
focus.
    Sadly, when this happens, both teachers and students suffer. 
Teachers, because the resources set aside to invest in increasing their 
knowledge and skills aren't focused on this after all. Students suffer 
because many of their teachers need the additional help and support 
envisioned under NCLB.
    The U.S. Department of Education has not shown sufficient 
leadership in confronting the misinformation, in building support for 
the teacher quality provisions, or in sharing widely some of the best 
things states and districts are doing. Indeed, at times the Department 
has denied the existence of key NCLB provisions related to teacher 
quality, including the requirement that states and districts do more to 
distribute teacher talent equally.
    Consequently, the teacher quality provisions--provisions that 
emphatically embrace teachers as the most important resource in helping 
students learn and allocate substantial resources to help them get even 
better--have frequently been cast as anti-teacher. And a law that 
stresses both accountability and support gets misunderstood as being 
focused only on accountability.

Early Images of Positive Impact
    Already, in states and districts that have embraced the teacher 
quality challenge, we are seeing some promising progress since the 
enactment of Title II.

Philadelphia, Pennsylvania
    For years, out-of-field teaching has been a closely guarded secret 
in public education. Many states and districts have been loathe to 
acknowledge this problem, but NCLB is strengthening the hand of 
education leaders who are willing to tackle the problem head-on.
    Philadelphia, Pennsylvania offers one such example: Because of 
NCLB, all of Pennsylvania's middle school teachers who had not 
previously demonstrated knowledge in the subjects to which they were 
assigned were required to take the state's teacher exam in their 
subject(s). The results brought attention to the fact that many of 
Philadelphia's middle school teachers have been teaching without 
sufficient knowledge of the subjects they were assigned to teach. In 
fact, more than half of all middle school teachers who took the tests, 
including almost two-thirds of the middle school math teachers, did not 
pass. These teachers need additional assistance and support to 
strengthen their subject knowledge.
    Philadelphia's school district and its superintendent are to be 
commended for their positive and constructive response to these 
results. The superintendent publicly referred to the test results as a 
``wake-up call,'' and explained that, while the assessments are 
rigorous and demanding, they represent knowledge that teachers need to 
possess. The school district announced a major initiative that will 
provide intensive training and assistance to help these teachers, 
supported with both public and private funds. Without the teacher 
quality provisions in NCLB, this important issue would have received 
little or no attention and fewer resources.

Chattanooga, Tennessee
    Recent initiatives in school districts like Chattanooga, Tennessee 
provide powerful evidence that bringing highly effective teachers 
together with low-performing, low-income, and minority students can 
successfully raise achievement. Chattanooga recently embarked on a 
concentrated effort to help students in nine high-poverty elementary 
schools, each of which previously ranked among the bottom 20 statewide 
in terms of achievement. The core of their strategy was a series of 
steps to greatly increase the quality of instruction. An innovative 
salary bonus plan provided an extra $5,000 for teachers who were rated 
as highly effective under Tennessee's nationally-recognized ``value-
added'' system of measuring teacher effectiveness, and who agreed to 
teach in the targeted schools.
    The results have been impressive. High teacher turnover, a 
perennial problem for hard-to-staff schools, has greatly declined. The 
percentage of third grade students reading at grade level increased by 
nearly 50% over two years, while the targeted schools have improved 
much faster than other schools both district and statewide, in all five 
subjects tested. Chattanooga is showing that teacher-focused strategies 
to close the achievement gap can work. Other districts are emulating 
this example, including a program in Mobile, Alabama, which is using 
NCLB Title II funds to pay substantial bonuses to highly qualified 
teachers who agree to work in the lowest-performing schools, and 
additional bonuses if these teachers meet ambitious goals for raising 
student achievement.

State of Ohio
    In March 2004, the formation of the Ohio Partnership for 
Accountability was announced, which is a consortium of all 50 teacher 
preparation institutions in the state, the Ohio Board of Regents, and 
the Ohio Department of Education. The Partnership has secured the 
participation of both major teacher unions in Ohio as well as the 
business community. This ambitious project will evaluate the 
preparation, in-school support, and effectiveness of Ohio's teachers 
using field studies and a comprehensive database that is being 
customized for this purpose.
    News reports surrounding the announcement of the Ohio Partnership 
credited NCLB for getting states more keenly focused on issues of 
teacher quality, and projected that Ohio could become an example for 
other states to follow. There is no question that NCLB has brought 
added energy and urgency to understanding good teaching and ensuring 
that more children get it.

                           V. Recommendations

    While the teacher quality provisions have garnered significant 
attention, their actual impact on changing practices and procedures in 
the field has been limited. To some degree, this is understandable as 
states and districts have devoted significant time and energy to 
getting their accountability systems up and running. The U.S. 
Department of Education needs to step up to its responsibilities in at 
least three areas: (1) ensure that states, other key stakeholders, and 
the public have an accurate understanding of NCLB's teacher quality 
provisions; (2) monitor compliance with the law more conscientiously; 
and (3) identify and disseminate best practices. This last 
responsibility is critically important to conveying a sense of hope and 
possibility in the face of critics who claim the law's goals are 
unreachable or unreasonable.
    Congress should undertake proactive oversight activities to ensure 
these provisions are being implemented, to learn about shortcomings 
that should be addressed in the next ESEA reauthorization, and to 
explore areas where additional federal legislation and financial 
support could accelerate progress on teacher quality issues.
    Specifically, Congress should consider the following:
1. Ask GAO to Report on Title II Allocations and Programs
    Title II funds are intended to help current teachers attain highly 
qualified status and to help hard-to-staff schools recruit and retain 
more highly qualified teachers. Congress increased funding for teacher 
quality improvement activities by nearly 50% after enacting NCLB, from 
approximately $2 billion to $3 billion per year. The funding formula in 
Title II specifically targets most of this money to the highest-poverty 
districts and then to the schools with the fewest highly qualified 
teachers. However, many public reports continue to bemoan the 
establishment of federal teacher quality goals without any federal 
resources to help solve the problems, suggesting that the existence of 
these additional funds is not widely known.
    Additionally, in part because many states have not had reliable 
data collection systems and practices, many states have reported that 
the overwhelming majority of classes are being taught by highly 
qualified teachers, even in the highest-poverty schools. This 
contradicts years of research and survey data, and raises a concern 
that Title II funds are not being effectively targeted to the neediest 
schools. Too little is known about how Title II's $3 billion annual 
appropriation is being used. Congress should request an accounting on 
this issue.
2. Support Value-Added Data Systems
    Many states had not previously collected data on the distribution 
of qualified teachers. This is an imperative first step to identifying 
the most serious problems and tracking progress over time. Even some 
states that have reliable statewide data do not have systems that are 
needed for sophisticated data analysis. Better information management 
systems and technology could help states better understand which of 
their teachers are most effective, and learn from them. Indeed, some 
forward-thinking districts such as Chattanooga, Tennessee are already 
using value-added data in just this way.\3\ Under current fiscal 
constraints, however, many state educational agencies are unable to 
invest in high-quality data systems. A small investment to help states 
develop and implement better data systems would greatly enhance the 
knowledge base on which states design and evaluate education 
improvement strategies.
---------------------------------------------------------------------------
    \3\ The Real Value of Teachers, The Education Trust, Winter 2004, 
Washington, D.C.
---------------------------------------------------------------------------
3. Commit Additional Resources to Teacher Quality Initiatives
    Raising the quality of teaching in the nation's public schools 
requires a long-term commitment of political leadership and monetary 
resources. Federal resources could provide incentives to recruit more 
teachers with strong backgrounds in mathematics and science, as well as 
teachers who are skilled at helping students with disabilities, 
teachers with bilingual skills, and more under-represented minorities 
into the teaching profession.
    Long-standing patterns of unequal distribution of qualified 
teachers are particularly hard to change, and high-poverty schools do 
not have the resources they need to compete for the most qualified 
teachers. States need to step up to their responsibilities on this 
issue, but Congress could help with significant incentives for teachers 
who have proven to be effective and who are willing to take on the 
toughest challenges in the highest-poverty schools. Right now, we don't 
know enough about what really works in attracting and retaining the 
most effective teachers into our hardest-to-staff schools. A 
competitive grant for those districts willing to experiment and provide 
examples and lessons for the rest could make a significant contribution 
in this area.

                             VI. Conclusion

    The teacher quality provisions in NCLB represent an important 
extension of the federal government's efforts to improve public 
education, in particular for low-income and minority students. This 
focus is based on a strong record of research establishing teacher 
quality as the sine qua non of educational improvement efforts. 
Moreover, the teacher quality provisions in NCLB embody the best 
elements of federalism: they identify a problem of national 
significance, provide some resources to state and local officials to 
focus on these problems, and call on the states to address their own 
unique circumstances with their own standards and strategies.
    By placing teacher quality squarely on the nation's agenda, 
Congress has made it more likely that public K-12 systems will get the 
help they need from their state legislatures, institutions of higher 
education, business communities, and other sectors of society. In 
essence, getting enough qualified teachers for our nation's public 
schools needs to be everyone's business. Congress has made an important 
contribution by elevating the prominence of the issue, and by providing 
some resources to spark innovation.
    Most importantly, Congress has taken a significant step forward in 
the quest to ensure that systems of public education better respond to 
the needs of all students--especially low-income students and students 
of color.
                                 ______
                                 
    Chairman Boehner. Thank you, Mr. Wiener.
    Ms. Mitchell.

  STATEMENT OF EILEEN MITCHELL, TEACHER, THE WILLIAM T. DAVIS 
           SCHOOL (P.S. 31), STATEN ISLAND, NEW YORK

    Ms. Mitchell. Good morning, Chairman Boehner, Ranking 
Member Miller, Congressman Owens, and Members of the Committee. 
My name is Eileen Mitchell, and I teach fifth grade at P.S. 31 
on Staten Island. I'm also a member of the United Federation of 
Teachers, an affiliate of the American Federation of Teachers.
    I appreciate the opportunity to appear before you today to 
discuss teacher quality. Let me start by saying that I agree 
with the goal of NCLB that all students should be taught by 
well supported teachers who know their subject matter and how 
to teach it. But the real question is, what path do we take to 
achieve this goal? I will draw from my experience as a teacher 
and tell you what I believe will and will not work.
    Some call for weakening or even eliminating schools of 
education. I disagree with this view. The best way to ensure an 
adequate supply of well trained teachers is not by avoiding 
collegiate teacher education, but rather by acknowledging its 
faults and strengthening its rigor.
    I would like to take a few minutes to talk about a report 
released by the AFT which recommends strategies for reshaping 
the teaching profession. I would like to share some of them and 
indicate how they interact with NCLB. First, I believe that 
teachers must know their subject matter and how to teach it. 
The intent of NCLB is to ensure that teachers have mastered the 
subject matter knowledge required to teach in their subject 
areas. Many veteran teachers who met the existing state 
requirements when they entered the profession have demonstrated 
mastery in their subject areas by participating in professional 
development, completing graduate courses, and by their years of 
successful teaching.
    NCLB wisely recognizes this by allowing veteran teachers to 
demonstrate that they are highly qualified by meeting a High 
Objective Uniform State Standard of Evaluation, or HOUSSE. 
However, the United States Department of Education has issued 
guidance saying that states may choose to offer the HOUSSE to 
these veteran teachers. Many states have not yet developed the 
HOUSSE, which makes it more difficult for teachers to 
demonstrate that they are highly qualified by the law's 
deadline. States should be required to develop the HOUSSE in 
order to ensure that veteran teachers can demonstrate their 
qualifications.
    Second, to be effective in the classroom, knowledge of 
subject matter alone is not enough. Teachers have to learn the 
craft of teaching and be exposed to instructional strategies 
that help students learn.
    Third, all beginning teachers need to participate in a high 
quality mentoring program.
    Fourth, the same standards that apply to traditional 
teaching preparation programs should apply to alternative 
routes to certification, and this option should not be 
synonymous with lower standards. Proper implementation of the 
teacher quality provisions in NCLB, including those prohibiting 
emergency licensure, will help ensure that all students are 
taught by qualified teachers.
    We saw the dangers of emergency licensure in New York in 
response to an acute shortage of qualified teachers. At one 
point, more than 17 percent of our teaching staff lacked the 
required credentials. I'm glad to say that this is no longer 
the case.
    And a few words about out-of-field teaching. Teachers do 
not choose to teach subjects that they are not qualified to 
teach, but all too often, administrators assign individuals to 
teach courses outside of their licensure area, and teachers are 
not at liberty to decline such assignments. To the extent that 
NCLB can rectify this problem, it would be one of the best 
outcomes of the law. However, teachers should not be penalized 
in the process.
    One example of the problems in implementing NCLB concerns 
the requirements for special education teachers. Under current 
interpretations, special education teachers who are fully 
certified in their field are also required to meet separate 
subject matter requirements for each core academic subject they 
teach. This is unrealistic, particularly in the case of those 
who teach multiple subjects in self-contained classrooms. The 
burden placed on special education teachers is likely to 
exacerbate the shortage of teachers in this field.
    Another way to help teachers to succeed is to support 
effective professional development programs. I also want to 
speak directly about teacher compensation, because it underlies 
many teacher quality problems, and addressing this issue will 
do more than anything else to help us meet the teacher quality 
goals of NCLB.
    Despite the strong emphasis placed on education in our 
nation, current teacher salaries do not reflect recognition of 
the pivotal role teachers play. It is worth noting New York 
City now offers more competitive salaries, particularly at the 
entry level. This has attracted a higher percentage of 
qualified teachers in city classrooms.
    Last fall we witnessed the positive impact that salaries 
have on improving teacher quality. Ninety-six percent of the 
9,400 newly hired teachers were certified, compared to only 50 
percent in fall 2001 before the salary increase. Our experience 
in New York City reminds us that in striving to improve teacher 
quality, we must work to make teacher salaries competitive with 
other professions.
    But recruitment is only half the battle. In New York City, 
we lose more than one-third of our new teachers after only 2 
years. To reverse this trend, we must provide ongoing supports 
and opportunities for professional growth.
    Teachers are the most basic educational resource that 
communities provide to students. Competitive salaries, rigorous 
preparation and licensure qualifications, mentoring programs 
and ongoing professional development are important to ensuring 
that all students have qualified teachers. Anything less denies 
students access to the quality education they deserve.
    Thank you again for the chance to talk about teacher 
quality from the perspective of teachers. I would like to 
invite you to come visit me or the teachers in your district in 
our classrooms. We are hard at work every day trying to meet 
the admirable goals of NCLB.
    I welcome any questions. Thank you again.
    [The prepared statement of Ms. Mitchell follows:]

  Statement of Eileen Mitchell, Teacher, The William T. Davis School 
                   (P.S. 31), Staten Island, New York

    Good morning Chairman Boehner, Ranking Member Miller, Congressman 
Owens and members of the committee.
    My name is Eileen Mitchell, and I am currently a fifth-grade 
teacher at P.S. 31 on Staten Island and have been teaching for 9 years 
in New York City. I am also a member of the United Federation of 
Teachers (UFT), an affiliate of the American Federation of Teachers 
(AFT).
    I appreciate the opportunity to appear before you today to discuss 
teacher quality. I have followed with great interest the debate 
around--and implementation of--the No Child Left Behind Act (NCLB). Let 
me start be saying that like most classroom teachers across the 
country, I agree with the goal that all students should be taught by 
well-supported teachers who know their subject matter and how to teach 
it. But the real question is what path do we take to achieve this goal? 
I would like to draw from my experience as a teacher in New York and 
tell you what I believe will--and will not--work.
    One school of thought calls for weakening, deregulating, and even 
eliminating schools of education that currently educate the vast 
majority of our teachers. This view holds that there is little beyond 
subject matter that teachers need to know and that pedagogy does not 
matter or can be acquired on the job. I disagree with this view. The 
best way to ensure an adequate supply of well-trained teachers is not 
by avoiding collegiate teacher education, but rather by acknowledging 
its faults and strengthening its rigor. Focusing on the way teacher 
education programs screen and prepare teaching candidates, as well as 
on higher standards for entering the profession, will ultimately lead 
to a better qualified teaching force that will benefit all students.
    I would like to take a few minutes to talk about a report that was 
released by the American Federation of Teachers in 2001 (Building a 
Profession: Strengthening Teacher Preparation and Induction), which 
recommended strategies for reshaping the teaching profession. These 
recommendations still hold today. I would like to share some of them 
with the Committee and indicate how they may interact with NCLB.
    First, I believe that teachers must know their subject matter and 
how to teach it. This is essential. Teacher candidates should be 
required to complete an academic major in addition to pedagogical 
studies and general liberal arts coursework. The major must be rigorous 
and comprehensive enough for prospective teachers to gain mastery in 
their field of study so they can ultimately help students meet rigorous 
K-12 education standards.
    Again, the intent of NCLB to ensure that teachers have mastered the 
subject- matter knowledge required to teach in their subject areas is 
sound. Many veteran teachers who met the existing state requirements 
when they entered the profession have demonstrated mastery in their 
subject areas by participating in professional development, completing 
graduate courses and by their years of successful teaching.
    NCLB wisely recognizes this by allowing veteran teachers to 
demonstrate that they are highly qualified by meeting a ``high 
objective uniform State standard of evaluation'' (HOUSSE). However, the 
U.S. Department of Education has issued guidance saying that states may 
choose whether to offer the HOUSSE to these veteran teachers. Many 
states have not yet developed the HOUSSE, which makes it more difficult 
for teachers to demonstrate by school year 2005-06 that they are highly 
qualified under the law's definition. States should be required to 
develop the HOUSSE in order to ensure that veteran teachers can 
demonstrate their qualifications in the manner that the law intended.
    Second, to be effective in the classroom, knowledge of subject 
matter alone is not enough. Teachers have to learn the craft of 
teaching and be exposed to instructional strategies that help students 
learn. Although NCLB gives weight to mastery of subject-matter 
knowledge, it does not emphasize the acquisition of pedagogical skills 
that are necessary for a high-quality teaching force. Any teacher will 
tell you that if an individual knows her subject, but doesn't know how 
to teach it, she will not be successful in the classroom.
    Third, all beginning teachers need to participate in a high-quality 
mentoring program that includes a selection process for identifying 
outstanding mentor teachers; adequate training and compensation for 
these mentors; and time for them to genuinely teach and support 
beginning teachers. Mentoring for teachers is a critical piece of the 
teacher quality puzzle, particularly in schools that are struggling 
academically. NCLB recognizes the value of mentoring by allowing states 
and districts to use Title II funds to develop teacher mentoring 
programs and by requiring districts with schools ``in need of 
improvement'' to provide mentoring programs for the teachers in these 
schools. In addition, the House-passed Ready to Teach Act (H.R. 2211) 
wisely provides grants that can support mentoring. The availability of 
these programs reflects an understanding that new teachers must be 
supported and that we can no longer throw them into the classroom to 
sink or swim.
    Fourth, the same standards that apply to traditional teacher 
preparation programs should apply to alternative routes to 
certification. Alternative routes to certification should not be 
synonymous with lower standards. State departments of education should 
recognize alternative routes that, at a minimum, admit only prospective 
teaching candidates who pass exams in the appropriate content areas. In 
addition, such programs must provide pedagogical coursework to 
alternative route candidates, monitor their performance in the 
classroom, and provide other services to support the development of 
effective teaching skills and strategies.
    Proper implementation of the teacher quality provisions in NCLB, 
including those prohibiting emergency licensure, will help ensure that 
all students are taught by teachers who are adequately prepared in the 
subjects they teach, are armed with instructional skills, and are fully 
and appropriately licensed. We saw the dangers of emergency licensure 
in New York. Although the city and state had rigorous entry 
requirements in place, for years they were compromised by the issuance 
of waivers for more than half of each year's recruits. This was done in 
response to an acute shortage of qualified teachers. At one point, more 
than 17 percent of our teaching staff lacked the required credentials. 
I'm glad to say this is no longer the case.
    I think it is also appropriate to say a few words about out-of-
field teaching. This practice should be eliminated. Teachers do not 
choose to teach subjects they are not qualified to teach. But all too 
often administrators assign individuals to teach courses outside their 
licensure area, and these teachers are not at liberty to decline such 
assignments. To the extent that NCLB can rectify this problem, it will 
surely be one of the best outcomes of the law. However, we must be sure 
that teachers are not penalized in the process.
    One example of problems in implementing NCLB concerns the 
requirements for special education teachers. Under current 
interpretations, special education teachers who are fully certified in 
their field are also required to meet separate subject-matter 
requirements for each core academic subject they teach. This is 
unrealistic, particularly in the case of those who teach multiple 
subjects in self-contained classrooms. The burden placed on special 
education teachers is likely to exacerbate the shortage of teachers in 
this field.
    Another way to help teachers succeed is to support meaningful 
professional development programs. Effective professional development 
programs must:
    <bullet>  Help teachers deepen and broaden their content knowledge 
by keeping pace with new advances in their discipline. Those who do not 
know content well cannot teach it well, so a prime purpose of 
professional development must be deepening the content knowledge of 
teachers. This is especially important now that standards for students 
are becoming more rigorous.
    <bullet>  Include a strong foundation in pedagogy. Simply knowing 
content, while crucial, is not sufficient. Teachers must be able to 
present the difficult concepts within their disciplines in a manner 
that students can grasp and then apply to their studies. Effective 
professional development programs should help teachers acquire 
strategies that help students make this connection.
    <bullet>  Provide knowledge about the teaching and learning 
process. Teachers must know how to manage a classroom of youngsters so 
that teaching and learning can take place. Professional development 
programs must be research-based and provide practical skills that 
teachers can use in their classrooms.
    <bullet>  Be aligned with the standards and curriculum teachers 
use. Significant changes in practice should not be instituted on the 
basis of unfounded preferences or because an idea is highly publicized. 
Practice should be examined and change considered on the basis of sound 
research. In addition, too many times there is no connection between 
the performance that particular states and school districts expect of 
students and the curriculum and professional development they provide 
to teachers. Professional development should help teachers understand 
what standards mean, how they will know that their students meet the 
standards, and the differences between standards-based and other forms 
of instruction.
    There are other components that are essential to effective 
professional development programs. They should be intellectually 
engaging and address the complexity of teaching; provide sufficient 
time, support and resources to enable teachers to master and integrate 
new content and pedagogy; and involve teachers at all levels of 
expertise. If states and districts adopt meaningful professional 
development programs that incorporate these guidelines, we will take a 
big step forward in our efforts to improve teaching and learning.
    Now, I also want to speak directly about teacher compensation 
because it underlies many teacher quality problems, and addressing this 
issue will do more than anything else to help us meet the teacher 
quality goals of NCLB. Despite the strong emphasis placed on education 
in our nation, current teacher salaries do not reflect recognition of 
the pivotal role teachers play in educating our children. We know from 
data included in the AFT's 2002 Teacher Salary Survey that average 
teacher salaries for new teachers start well below those in many other 
professions. For example, the survey shows that the average new teacher 
earns $30,719 while a starting accountant or engineer makes an average 
of $41,162 and $49,702 respectively. In addition, this gap is 
maintained, and in some cases even grows, over time as the average 
salary for a teacher is $44,367 compared to $54,503 for an accountant 
and $76,298 for an engineer. These figures make a strong statement 
about the value we place on teaching in America.
    It is also worth noting New York City now offers more competitive 
salaries, particularly at the entry level. This has attracted a higher 
percentage of qualified teachers into city classrooms. Last fall, we 
witnessed the positive impact that salaries have on improving teacher 
quality--96 percent of the 9,480 newly hired teachers were certified, 
compared to only 50 percent in fall 2001 before the salary increase. 
Our experience in New York City reminds us that in striving to improve 
teacher quality, we must work to make teacher salaries competitive with 
other professions.
    But recruitment is only half the battle. I know from firsthand 
experience that in New York City we lose more than one-third of our new 
teachers after only two years. To reverse this trend, we must focus 
much more on providing the ongoing supports and conditions and 
opportunities for professional growth. Experience is a big part of 
quality teaching. As eager as newcomers may be, they need a few years 
on the job to fully realize their potential. If teachers leave before 
that point, our students never receive the benefit of their fully 
developed skills.
    Teachers are the most basic educational resource that communities 
provide to students. By ensuring a competitive salary base and 
schedule, together with rigorous preparation and licensure 
qualifications, mentoring and induction programs, and ongoing 
professional development, all students can have access to well-
prepared, qualified teachers. Anything less denies students access to 
the quality education they deserve.
    Strengthening teacher quality will take political will, resources, 
and a greater seriousness of purpose among all involved in the policies 
and practices related to the preparation of teachers. The answer on how 
best to recruit and retain high-quality teachers is professionalism: 
Outstanding preparation, strong induction programs and competitive pay, 
administrative support and ongoing opportunities for professional 
growth.
    Thank you again Mr. Chairman and Ranking Member Miller for the 
chance to talk about teacher quality from the perspective of teachers. 
I would like to invite you to come visit me--or teachers in your 
district--in the classroom. We are hard at work every day trying to 
meet the admirable goals of NCLB. I welcome any questions that members 
of the Committee may have in regard to my testimony.
                                 ______
                                 
    Chairman Boehner. Thank you, Ms. Mitchell.
    Mr. Bailey.

STATEMENT OF TRACEY BAILEY, 1993 NATIONAL TEACHER OF THE YEAR, 
  NATIONAL PROJECTS DIRECTOR FOR THE ASSOCIATION OF AMERICAN 
                           EDUCATORS

    Mr. Bailey. Thank you, Mr. Chairman, Members of the 
Committee. Good morning, and thank you for the opportunity to 
speak.
    I've been asked to address a fairly specific and limited 
list of issues this morning regarding the current 
implementation of the highly qualified provisions of No Child 
Left Behind. My experience in this comes primarily over the 
last seven or 8 months in having served as a citizen member of 
the U.S. Department of Ed's Teacher Assistance Corps.
    And I think most of you know that that Teacher Assistance 
Corps was put together primarily of people outside the 
Department, about 45 or 50 individuals, teachers, professors, 
folks with expertise in teacher quality. And our goal, our 
assignment was to travel out to states and to find out from 
them where they were having trouble implementing the highly 
qualified provisions.
    Now we really had, I guess, three or four avenues in this. 
The first really was to listen. We were instructed--we were not 
an auditing team. We were not a monitoring team. We were there 
simply to listen, to learn where they were having trouble, to 
offer some of those best practice or promising practices that 
other states had identified, and to be able I think to 
encourage them to use the flexibility they had under state-
based decisionmaking.
    There were a lot of areas I was surprised to find out where 
states actually had a little more flexibility than what they 
were using initially. I'm going to describe some of those 
visits and some of the issues that came up on those, but I will 
say that I think both sides, the TAC team from the Department 
of Ed, and the state leadership team, usually the Commissioner 
of Education and six to a dozen of his leadership team, we had 
I think a mutual appreciation for a problem-solving session.
    Again, we were not there to audit or monitor. As I 
understand, the monitoring phase of this begins next month or 
so with the Department of Education. This was basically a heads 
up to say there's one area there you have that probably isn't 
consistent with the law, and better that we tell you about it 
now than you find out a year or two down the road when teachers 
have been put through some unnecessary grief or when they're 
told then they don't meet the requirements of the law.
    Now I have three areas about those visits that I'd like to 
highlight.
    First, I do think that the Teacher Assistance Corps was 
helpful in being able to kind of head off some of the most 
serious problems that the states on a few occasions were headed 
into. I mean, a good example is--not often, but a few of the 
states had written into the HOUSSE provisions, and primarily 
HOUSSE issues were prominent because that is the mechanism by 
which the vast majority of veteran teachers are going to be 
deemed highly qualified in many states--some states were taking 
liberties and saying if you've been teaching for 5 years, 
you're highly qualified under the HOUSSE with no other 
criteria.
    Now that was just a misreading of the law. The law says 
that experience in the classroom can and should be a 
significant indicator, a significant part of the criteria, but 
it cannot be the primary or majority. And to my knowledge, all 
states have amended their HOUSSEs in that way.
    Again, I think that we were as helpful not in pointing out 
where they may have been going too far in areas, but areas 
where they weren't going far enough; areas where they literally 
didn't understand that they had the flexibility to make some 
decisions.
    I think one of the leaders in the Department of Ed 
mentioned that in this topic that 80 to 85 percent of the 
decisions about highly qualified teachers are made at the state 
level. My colleague, Mr. Wiener here, mentioned that teacher 
quality decisions in No Child Left Behind defer mightily to the 
states, and I found out that was true.
    Second, there is a problem. There is a high rate of 
variability among the HOUSSE standards that different states 
have created. Now, obviously, in laboratories of democracy, we 
should expect a lot of variability. But I would say that there 
are areas where there's a balance, there is a balance between 
wanting--in fact, our goals, Ms. Mitchell mentioned that some 
states had not yet developed HOUSSEs, and I understand that's 
true. At last check, it was 30 to 40 states that have them and 
only ten or so that have not or don't have them in serious 
development.
    In my written testimony I say typically we in the TAC team 
encourage the use of an appropriately designed HOUSSE since one 
of our foremost goals was to encourage states to use all of the 
available flexibility in order to give teachers the most fair 
opportunity to be determined highly qualified with the least 
professional disruption. We're advocates of that flexibility.
    But the variability that I'm referring to goes to the point 
of in some states their HOUSSE provisions begin to lose focus, 
particularly in those words of high standards, objective 
standards and uniform standards.
    Case in point. I don't know how many of these provisions 
you've seen, how many of the HOUSSE matrices. Typically they 
take the form of a rubric where a teacher in the first three 
categories is fully entitled to take credit for professional 
experience, for college coursework, for professional 
development in that subject area. Those are wonderful 
categories to include in a HOUSSE provision.
    But then the rubrics tend to go on, and they get into areas 
that are less subjective; issues like service and 
organizations, service to the teaching community, awards that a 
teacher may have received that may not have been in the subject 
area; seminars or conferences that a teacher might have 
attended that were not in the subject area.
    Now those areas where in the TAC team we pointed out to 
states, you ought to be a little careful. We didn't tell them 
you can't do this, but we pointed out that those requirements 
have to be related to the subject area, and that was of 
critical importance. Now, again, it's a state decision, and I 
think we as a team deferred to states' rights, but that's 
something that you as Committee obviously will be looking at, 
I'm sure the Department will be looking at when it follows up. 
I can talk more about this in the question-and-answer period.
    I think the last area that I'd like to just touch on is 
that the TAC team did identify five or six areas of serious 
difficulty, of genuine difficulty for states to implement even 
with the best and the most sincere good faith efforts. Special 
education is one of those that was mentioned. Rural schools is 
one. Some issues with middle schools, science and social 
studies teachers.
    The list is not a long one, and the Department's response 
to this was taking that feedback that came from the state 
visits and very quickly, as recently as a month and a half ago, 
issuing new sets of guidelines for flexibility in those areas. 
I think I included in my comments attached to my testimony was 
a press release and a DOE factsheet announcing the new 
flexibility for rural schools, for science teachers, and for 
teachers that teach in multiple subject areas.
    I think the Department has been responsive in that area. We 
can talk about more. On the back side of that factsheet, the 
Department has highlighted four areas where states have always 
had existing flexibility, and it's encouraging them to use 
that, and that includes the HOUSSE provisions that we've 
mentioned. It also includes some suggestions on how to work 
with special ed.
    In closing, I'd simply like to say this. One major problem 
of implementation to this point is that rank-and-file teachers 
in the classroom have not been given good information from any 
level of the bureaucracy--not from their states, not from their 
districts. They have been told that they might not be highly 
qualified, but they haven't been able to find out what do I 
need to do? Are you certain? If there's a draft policy in 
progress, teachers should be told that. I think that this kind 
of frustration and uncertainty and misinformation has 
exacerbated any of the implementation of the highly qualified 
teacher provisions. Teachers should be treated as 
professionals. They should be told early on, we don't have it 
finalized it, but we'll be in touch with you. Many teachers 
have been told, you're not highly qualified. Yes, you are. Oh, 
but you might have to go back and take these courses.
    Finally, I agree with Ms. Mitchell and many of my 
colleagues that these provisions are designed to get teachers 
the help that they need in those few areas where teachers may 
not be highly qualified in a subject area, they have the time 
and the resources in order to fix that shortcoming.
    Most of the time, teachers do not ask to be put in out-of-
field areas. These are placements that are imposed upon them by 
the district or by a staffing crisis. The highly qualified 
provisions that you have designed do give an opportunity for 
teachers to say I can't go into that placement. I'm not highly 
qualified in it, or I've been there for 2 years, and it's the 
district's responsibility now to either get me the training or 
place me back where I'm more appropriately prepared.
    I appreciate your time on this, and I look forward to 
answering your questions. Thank you.
    [The prepared statement of Mr. Bailey follows:]

Statement of Tracey Bailey, 1993 National Teacher of the Year, National 
          Projects Director, Association of American Educators

    Mr. Chairman, Members of the Committee,
    Thank you for this opportunity to discuss the implementation of the 
Highly-Qualified Teacher (HQT) provisions of No Child Left Behind. I 
have three experiences from which I approach this issue. The first is 
as a member of the USDOE Teacher Assistance Corps. As you know, the TAC 
Team was created by the US Department of Education last year in order 
to travel to states and help identify areas where states were having 
problems implementing or interpreting the Highly-Qualified Teacher 
provisions. I will describe this team and its actions more thoroughly 
in a moment.
    Second, for the last eight years I have helped to lead an 
independent professional teacher association, the Association of 
American Educators. In this capacity I have received calls from 
hundreds of teachers around the country about the misinformation, the 
uncertainty, and the lack of clear answers from their states or school 
districts about their status under the Highly-Qualified Teacher 
provisions.
    Third, I was a High School Physics, Chemistry, and Advanced 
Placement Biology teacher in Florida, and was fortunate to be named 
both Florida Teacher of the Year and National Teacher of the Year for 
the United States. This experience has given me a hands-on perspective 
and a sense of urgency about getting accurate information to the 
teachers who are on the front lines.
A Teacher's Story about the Highly-Qualified Provisions of NCLB
    Before I begin describing some of the activities of the TAC Team, 
let me share a brief anecdote about a call that came into our national 
office from a teacher in Nevada. This teacher is a long-time veteran 
and a consummate professional--certified for 20 years in New York State 
and for more than 10 years in Nevada. Above this, she has mentored and 
helped to train other mentor-teachers.
    Last fall, her principal came into a faculty meeting with a long 
list and a frown on her face. In what I can only imagine was a pompous 
voice, she said, ``I have here a list of who is and who isn't highly 
qualified!'' And with that the principal went on to read the list 
aloud. ``Mrs. Smith, Highly-Qualified! Mrs. Jones, Not Highly-
Qualified! Mrs. Brown, Not Highly-Qualified!'' And so she went through 
the entire faculty. And when this humiliation finally came to an end, 
the principal had the audacity to remark something like, ``Let me 
remind you that this is all because of No Child Left Behind.''
    Now this spectacle would have been bad enough, if the principal had 
even been correct about the Highly-Qualified status of these teachers. 
But she wasn't. Nearly all the faculty were highly-qualified, a fact 
immediately verified on our teacher's behalf with the state Department 
of Education. Now forgive me for questioning not only this principal's 
lack of professionalism, but also the personal motives behind such a 
thoughtless and hurtful event.
    Yet scenes similar to this--misinformation and unnecessary anxiety 
for teachers--have been played out across the country for the last year 
or more. This lack of accurate information to teachers about their own 
highly-qualified status has been one of the major contributors to 
stress and unnecessary anxiety in the implementation of this statute. 
In large part, this is why I agreed to join the TAC Team--to help 
provide states and teachers with accurate information.
The TAC Team--State Visits
    As I mentioned, the TAC team was created by the US Department of 
Education last year in order to travel out to states and help identify 
areas where states were having problems implementing or interpreting 
the Highly-Qualified Teacher provisions. It was made clear to members 
of the TAC team from the beginning that we were primarily charged with 
``Listening'' to the states, ``Learning'' what we could about their 
problems and their unique situations, and only then offering some 
``Suggestions or Promising Practices'' that were possible within the 
law. These were often ideas which were being used in other states, or 
suggestions that might offer a better use of the state-based decision-
making flexibility which the law allowed. We were also charged with 
bringing reports back to the USDOE about the most common problems, the 
most challenging issues, or the most frequently misunderstood portions 
of the law.
    It was surprising to me--and personally satisfying--how often the 
TAC team was able to point out to states areas where they had the 
ability to be more flexible than what they were originally proposing. 
Our goal was to eliminate any unnecessary obstacles or disruptions for 
teachers, while still keeping the standards high. Of the state visits 
that I personally attended, I can say that there was--without 
exception--mutual appreciation between the TAC Team and the State 
Department of Education leadership for the candor, the good faith 
effort, and the mutual problem-solving approach exhibited by all 
parties.
    One of the main areas in which the TAC Team offered guidance was in 
the creation of a well-defined and objective set of H.O.U.S.S.E. 
provisions. As you know, these High, Objective, Uniform, State 
Standards of Evaluation are the means by which NCLB allows states to 
locally decide and determine the criteria by which many teachers who 
are currently in the classroom are deemed highly-qualified. I do not 
think that it is an exaggeration to say that, in some states, the 
majority of existing classroom teachers are determined to be highly-
qualified largely through the HOUSSE provisions.
High Variability in Application of the H.O.U.S.S.E. Provisions
    In some states, I was surprised to find that they had not yet 
decided how to use the HOUSSE provisions--or in some cases, whether to 
use a HOUSSE option at all for their teachers. Typically, we encouraged 
the use of an appropriately designed HOUSSE, since one of our foremost 
goals was to encourage states to use all of the available flexibility 
under HQT in order to give their teachers the most fair opportunity to 
be determined as highly-qualified--with the least professional 
disruption.
    In a few cases, we were somewhat taken aback by the ``excessive 
liberties'' that seemed to be appearing in state policies, often caused 
by a temporary misreading of the law. For example, a few draft state 
policies gave highly-qualified status to any teacher who had been 
teaching a particular subject for five years or more, regardless of any 
other factors. Not only would this be an extremely questionable single 
indicator of teacher quality, but the law specifically states that any 
HOUSSE must ``take into consideration, but not be based primarily on, 
the time the teacher has been teaching in the academic subject.'' To my 
knowledge, these states changed their draft policies after being 
advised that they were inconsistent with the law.
    In other cases, a few states were giving excessive credit for 
questionable, vague, or highly variable kinds of activities. These 
include seminars not related to content matter, general awards, and 
membership in non- academic associations.
Quality Professional Development in the Subject Area--Not ``Cheap 
        Points on Scorecards''
    For example, one principal--upon being told that his state's HOUSSE 
provisions might give credit to teachers for a vague range of 
``seminars''--made the comment to the State Department of Education 
staff that ``I guess I'm going to go out and schedule a bunch of 
seminars.'' The principal clearly intended to simply ``rack up some 
easy points'' for his teachers on the HOUSSE scorecards.
    Before finishing that state visit, the TAC Team made a strong 
statement that the law intends to provide the time and the resources to 
help teachers receive whatever quality professional development they 
need, not simply score cheap points on a scorecard. I asked the 
question of the professional development coordinators who were gathered 
in that room, ``Would you rather have a principal like this trying to 
schedule an arbitrary number of questionable ``seminars'' on his own or 
would you rather have a teacher receiving well-planned, quality 
professional development in the subject area that he or she teaches?'' 
To their credit, the State Department of Education made it emphatically 
clear to their constituents that they were committed to quality 
teachers and intended to strengthen that language before a final 
version of the HOUSSE matrix was approved.
    The point is, of course, that we should be certain that the state-
designed HOUSSE matrices are truly encouraging helpful, subject-
oriented staff development--and not simply encouraging ``point-
earning'' activities of questionable value.
Common Problems and Areas of Difficult Implementation
    We had known that several areas were going to present problems for 
some states. After the first few state visits, it became clear that 
there were four or five common areas that were creating the greatest 
difficulty for states. Without going into detail, these included Rural 
Schools, Middle Schools, Special Education, Science, and Social Studies 
teachers. (The issues on both science and social studies involve a 
question of whether a teacher can be a ``broad field generalist'' or 
must be specifically ``highly-qualified'' in each sub-topic of that 
subject area.)
    To their credit, the USDOE has provided clarification and 
significant flexibility in nearly all of these problem areas. I have 
provided copies of a USDOE Fact Sheet which summarizes several of these 
recent policy changes. Furthermore, on page two of this announcement, 
you can see how the Department is encouraging states to use all of 
their local, State-based decision-making power--with existing 
flexibility--to handle some of these problem areas.
    In some of these cases, such as Rural Schools, the Department has 
been able to provide more time for these teachers to become highly-
qualified in each subject area that they teach. As you know, in many 
rural schools, teachers may have the responsibility for teaching 
multiple-subject areas and multiple-grade levels. In other problem 
areas, such as the issue of highly-qualified Science Teachers, the 
Department is pointing out that states may determine--based on their 
current certification requirements--whether to allow science teachers 
to demonstrate that they are highly qualified in ``broad field'' 
science or individual fields of science (such as physics, biology or 
chemistry).
    There are still problem areas for states that have not yet been 
fully addressed by these policy changes or clarifications. Chief among 
these may be clarifying how the highly-qualified provisions are applied 
to Special Education teachers.
    But globally, I would still have to say that the greatest single 
frustration to teachers about HQT--and a huge obstacle to a clear and 
effective implementation of these provisions--is that teachers have not 
received timely and accurate answers from many states and school 
districts about their Highly-qualified status.
    The expectation of most people is that the majority of current 
teachers in the United States are already highly-qualified, and this 
process will confirm that. And for those who are not currently highly-
qualified, the goal of this law is to give them the time and resources 
to become highly-qualified over the next few years. We should be giving 
teachers clear answers and guidance now--and getting them the 
professional development they need--rather than waiting until a 
manageable training issue becomes a significant problem for teachers 
and schools.
    I look forward to answering your questions. Thank You
                                 ______
                                 
    [An attachment to Mr. Bailey's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T3198.001
    
    [GRAPHIC] [TIFF OMITTED] T3198.002
    
                                ------                                

    Chairman Boehner. Let me thank our distinguished panel of 
witnesses for your excellent testimony today and your 
experience and your expertise in how do we get highly qualified 
teachers in all of our classrooms.
    I just better get this off my chest right now. We've done 
these hearings during the development of No Child Left Behind, 
and for the last 2 years now we've done hearings on the 
implementation of No Child Left Behind, and every time we have 
one of these hearings, every time I go out and do a school 
visit, I see a 1957 Edsel wired together trying to teach our 
nation's kids.
    I just can't get over this. It is so frustrating to me to 
realize that we're not talking about the auto industry in the 
late '70's and early '80's that couldn't make very good cars 
that didn't last very long. We're talking about children's 
lives. And to think that the situation that we have in far too 
many of our schools is dysfunctional and a teacher preparation 
system in our country that doesn't produce people who can go 
into a classroom and teach, that we're continuing day by day to 
ruin a kid's chance at the American Dream.
    And I got it off my chest. I feel better now.
    [Laughter.]
    Chairman Boehner. Let me say that if we do expect to get 
the best and brightest into the teaching profession, that we've 
got to pay people. We can't violate the laws of economics. 
We've tried to do it for 200 years, putting teachers on a 
pedestal. Making them look as--they're the pillars of our 
community and we look up to them, but, no, we're not going to 
pay you. We've taken advantage of people in this profession for 
200 years.
    So if we're going to attract the best and the brightest 
into the field, we've got to pay them. We all know the problems 
about how--I don't know, there are a lot of problems about 
where you come up with the money, but we know that we've got to 
pay them.
    And second, I agree with what several of you have said. If 
we're going to have good teachers in poorer schools, there 
ought to be some incentive. Clearly, when you go into lower 
income schools, a school--let's just leave it at that--that the 
effort, the work that's required is significantly more than 
walking into an ultra white suburban wealthy school district. 
We all know it. But why can't we get value-added pay plans in 
more of these districts?
    But I think the first question I'm going to ask, and I 
think I'll ask Ms. McCown, the state of teacher preparation 
programs around the country. Tell me something. Give me some 
good news of some sort.
    Ms. McCown. Well, I think the good news is, is there are 
some good preparation programs. I think there are obviously 
some excellent teachers who are going into schools.
    The Teaching Commission's view is that what's happened in 
many cases in states is that the preparation program or the 
certification process has created barriers to entry for good 
people going into the system. And in doing so, they've created 
a series of hoops that people have to jump through which are 
not necessarily correlated with good teaching.
    So I think it's important to recognize that the point here 
is quality, not quantity. And what we have to think about are 
ways in which we can determine what it is that a good teacher 
needs in order to be a good teacher and then make sure that the 
states provide some opportunity for those individuals to go 
into teaching.
    The other piece with regard to preparation is that colleges 
and universities right now, one thing that nobody can argue 
with is that the one institution in this country that has an 
impact on who goes into teaching are colleges and universities. 
That is the place where every single person has to go through 
in order to become a teacher. They have to go through a college 
or university. Nobody denies or nobody argues with the fact 
that an individual needs an undergraduate degree in college to 
become a teacher.
    But what's happened is that the college and university 
presidents more often than not devolve the responsibility down 
to the school of education, and I don't mean that in a negative 
way, but they devolve the responsibility down to the school of 
education with no real indication of what the standards at 
schools of education are.
    So unfortunately--and this is not across the board, because 
there are some good schools of education, and I think Ms. 
Mitchell referred to that--but unfortunately, many times 
schools of education are not the places that have the highest 
standards and they're not the places that recruit the brightest 
students.
    So what we're saying is that college and university 
presidents need to be directly involved in that process. And 
frankly, that the Federal Government needs to hold colleges and 
universities accountable for that process, and that's whether 
they have a school of education or not.
    There are vehicles through which an individual can go in 
order to become--or go through in order to become a teacher 
that may not necessarily require school of education. And I'm 
not saying at all that anybody can teach, but I am saying that 
there should be opportunities in schools, in colleges and 
universities that don't have schools of education where if an 
individual decides he or she wants to teach, there should be a 
vehicle through which they can go in order to do that, and that 
would include mentoring and induction programs at the school 
level.
    And just let me finish up by saying the school level 
mentoring and induction programs are incredibly important, and 
that's something that's clearly missing in the process, because 
schools at this point are not really held accountable for 
ensuring that new teachers who come in and existing teachers 
have opportunities for mentoring and induction, and that also 
ties into the career ladder piece that we have recommended.
    So thank you.
    Chairman Boehner. My time has expired. Let me recognize Mr. 
Miller.
    Mr. Miller. Thank you. And I'd like to just follow up on 
that question. I've sort of had a running battle here with the 
schools of education over the last 10 years. And, Mr. Landgraf, 
I'd like if you could comment on this, because of--on your work 
that you're doing with the National Council on Accreditation, 
because I think there is real concern.
    We asked the schools of education to give us a report how 
their graduates do on their state test as to whether or not 
they can get their credential in that state, and it's a very 
mixed bag. And unfortunately, a number of them tried to game 
the system. Because we wanted to know how many graduates passed 
the exam, then they redefined ``graduate'' as only those people 
who passed the exam, so they had 100 percent passage rate, 
although that wasn't the attendees in the schools of education.
    So I just wondered, how does your work dovetail with what 
Ms. McCown has said?
    Mr. Landgraf. Thank you, Congressman. As I testified before 
Congressman Castle's Subcommittee the last time I was here, 
gaming of the system is a huge problem. It's because the stakes 
become so high.
    We're working with NCATE to work with states to set 
meaningful standards, require rigorous attention to how those 
standards are met, and now allow colleges of education or any 
other preparatory mechanism to game the system so that it 
appears that their graduates are higher.
    Now having said that, Congressman, this--
    Mr. Miller. Let me stop you right there. Having said that, 
when you say you're working with the states, what level of 
cooperation and interest are you getting from the states to 
achieve that?
    Mr. Landgraf. I would describe that as mixed. Some states 
do not want anyone outside of their local environment. I would 
say that NCATE that represents the colleges of education, is 
very forcefully pushing for minimal standards, is very 
forcefully interested in having colleges of education support 
the concept of minimum certification.
    Mr. Miller. So you think that that's going to grow?
    Mr. Landgraf. Yes.
    Mr. Miller. I mean, the acceptance is going to grow or the 
willingness to look at this?
    Mr. Landgraf. Yeah. Congressman, I think that the answer to 
this is complex. This is a very--
    Mr. Miller. No, I appreciate that.
    Mr. Landgraf. But if you want colleges of education and the 
teaching profession to take more seriously certification, it 
needs to be specifically indicated in your initiatives that we 
must in fact require certification.
    If you're going to require certification, this is a 
simplistic sort of output function. You have to pay teachers 
more. You have to put more rigor into baseline certification. 
You have to hold teachers accountable for their outputs. You 
have to provide professional development, and you have to be 
willing to stand up and sanction teachers and school districts 
that do not meet achievement standards. Once you do that, the 
entire system will take more seriously input and output 
measures in education.
    Let me just close by--Congressman Boehner got a little 
emotional, so I will, too. Public education in this country is 
all but broken. It's the fundamental foundation of the system 
of democracy we live in.
    Unless we address the achievement gap, unless we address 
the needs of our poorer population in public education, I worry 
greatly about the future of this country and the outstanding 
democracy that we live in.
    Certification of teachers is essential. Training of 
teachers is essential, and putting technology and money into 
the educational process is my view of the answer.
    Mr. Miller. Ross, can you comment on this?
    Mr. Wiener. Specifically with respect to teacher 
preparation programs, I think that it's important to look at 
teacher preparation programs through at least two metrics, and 
one is quality and the other is quantity.
    The measure of quality that you put into the Higher 
Education Act in 1998 looks primarily at the pass rates of 
teachers on the certification exams, the licensure exams that 
they're going to take before they officially enter the teaching 
profession.
    I think that while it is important and necessary to look at 
those pass rates, that is not sufficient. We have to start to 
look at how those teachers then perform in the classroom. We've 
got to start to understand better who our most effective 
teachers are, what kinds of training experience did they get, 
what kinds of ongoing professional development really helped 
them.
    We can really understand that issue a lot better, but it is 
going to take better data systems, and then, as the prior 
answers indicated, really ensuring that systems pay attention 
to the answers we get from that data.
    The other, though, is, is quantity. In certain areas, we 
have shortages, in particular in math and science, and with 
respect to teachers with very specific skills--helping students 
with disabilities and limited English proficient students.
    We need to ask teacher preparation programs to respond to 
those shortages by making part of their accountability based on 
whether they're helping public education meet the needs for 
more teachers in those areas.
    There are some very good examples of that. In fact, today 
the Louisiana Board of Regents is going to release some results 
that explain how by asking particular campuses to focus on the 
production of teachers in math and science, they really have 
gotten a lot more, they have enticed a lot more prospective 
teachers to go through those programs, and they are really 
helping to meet the needs of Louisiana's public schools.
    Another program in the Texas A&M system that's supported 
with a Title II Higher Education Act grant has had a similar 
system of goals for specific campuses. And the campus 
presidents are specifically accountable for what they've done 
to meet those goals and for reporting to the chancellors about 
their success on helping public education in Texas get more 
math, science and bilingual teachers.
    So I think on both those areas of quality and quantity, we 
can see a lot of improvement in teacher preparation.
    Mr. Miller. Thank you very much. My time has expired. 
Unfortunately, I have to leave. I don't want this to be 
interpreted as a lack of interest, because this is my only 
interest. But we have a bill on the floor that I need to 
participate in.
    So thank you so much for your participation. You've been 
very, very helpful to us. Thank you.
    Mr. Castle. [presiding] Thank you, Mr. Miller. We do 
appreciate your continuing tremendous interest in this subject. 
And I next yield 5 minutes to myself, not because I was handed 
the chair temporarily, but because I'm next on the list, for my 
colleagues who might worry about that.
    [Laughter.]
    Mr. Castle. And I want to explore an area that's a little 
bit different than anything we've talked about too much today, 
and I don't want to suggest by doing that that I don't think 
that teacher preparation and all that goes into that, and 
teacher pay and those things, are of huge importance. They are.
    I want to talk about what happens after people become 
teachers and get some of your viewpoints on that. Because, 
frankly, I've not been overwhelmingly impressed by that. And I 
still believe that the greatest improvement we can put in 
education is not just the new teachers who we're starting to 
prepare, but those of you who are in the classroom now, because 
next year, some substantial percentage of the teachers are 
going to be there again, and that's going to go on for a number 
of years, so I worry about that.
    And let me just say that I've never personally--and as a 
public official, I've been to, well, every public school in my 
state and have dabbled in education for almost decades now--and 
I've never been impressed by whatever you want to call it, in-
service days, professional days. There may be different names. 
Maybe people look at it differently, that I've seen in 
Delaware. And some of the ones that I think are probably the 
lowest level are the ones I participated in, to give you some 
example of my thinking about that.
    And I've also worried about the classroom help that 
teachers get after they get there, particularly the new 
teachers in terms of developing the teaching skills that a 
couple of you mentioned. It's not just knowing your content; 
it's being able to teach it as well.
    It's also obviously the extra programs that they can take 
educationally or whatever it may be. There's a lot that goes 
into this to give teachers two opportunities: one, to teach 
better and to really help them, and to judge them and to make 
sure it's going correctly; and second, to give them greater 
opportunity to earn more in terms of their educational 
development or whatever it may be.
    So I'm very interested in taking my 5 minutes and trying to 
develop that subject. And I won't call on a particular person. 
If you have any ideas about what happens to teachers afterwards 
in terms of the in-service days, the educational functions, the 
mentoring, that kind of thing, I'd be interested in your points 
of view, particularly as they pertain to what we're doing in No 
Child Left Behind.
    Ms. Mitchell. May I speak on that?
    Mr. Castle. Certainly, Ms. Mitchell.
    Ms. Mitchell. As a teacher in New York City on Staten 
Island, we have ongoing professional development and in-service 
training, and I find them valuable, because I find teaching is 
an ongoing learning process--that just getting your degree and 
going into the classroom with the books that they want us to 
guide students by is not the end-all.
    Mr. Castle. Tell me about what you have. I mean, you're an 
esteemed teacher in a classroom. How many days a year is this, 
and what happens in those days?
    Ms. Mitchell. I'm sorry. Can you--
    Mr. Castle. How many days a year, in the teaching year, do 
you do this, and what happens during those days that's of so 
much value?
    Ms. Mitchell. A lot of days. I'll tell you, it's--twice a 
month we have ``lunch and learn'' in our school building, where 
teachers sit together and talk about the strengths and 
weaknesses that they see in the programs that we're working 
with. And we have teachers that will videotape their classroom 
and share what they've done, and we will dissect sometimes 
what's going on and where we can improve what is going on in 
the classroom with the students.
    Teacher training is ongoing. I also do math professional 
development with teachers where we all have our strengths, and 
each one of the teachers that has a strength that could help 
someone in a classroom is ongoing. It's not just something that 
stops.
    Mr. Castle. Is this your school or your school district, or 
do you feel it's the entire state of New York?
    Ms. Mitchell. I think it's New York. I believe it's New 
York, because what I do, during the summer, I do a lot of math 
professional development, and there are a lot of teachers that 
attend. If there were no teachers that attended, I would 
believe that, no, it's not happening in New York.
    And I've had the privilege of working in Brooklyn, the 
Bronx, Queens, and Staten Island, so I do know that it's going 
on throughout New York.
    Mr. Castle. That's interesting. Other comments? We'll go to 
Ms. McCown, then we'll go over to Mr. Bailey.
    Ms. McCown. Congressman Castle, I think that the whole 
notion of professional development is an extremely important 
one, and I'm speaking now both on behalf of the Commission but 
also as a former teacher. I taught in the South Bronx for 6 
years.
    The need for--
    Mr. Castle. I think it's important, too. I'm interested in 
how good it is and how we can improve it.
    Ms. McCown. OK. OK. I went through a lot of professional 
development programs when I was a teacher, and I know it's 
changed over the years. But my experience is that professional 
development can't give somebody the skills and capacity that 
they don't have going into a professional development program.
    And the reasons for that are twofold in my view. One is 
that often professional development is not research-based, and 
it's also not often outcomes-based. So the idea is that it's an 
opportunity for an individual to learn about something that he 
or she may not know about it, but it's not necessarily--and 
again, I'm generalizing here, but I think it's important to 
make the point. It's not necessarily based on what's going on 
in the classroom or what's actually going to ensure or help 
students learn.
    So I think the most important aspect of professional 
development is it has to be research-based and it has to be 
outcomes-based. And I would venture to say, and again, I don't 
want to generalize, but I would venture to say that a lot of 
the professional development that's going on right now in 
schools, and it certainly was the case when I was a teacher, is 
not necessarily of the caliber that's going to get us where we 
need to be.
    And I think it's important for us to assume that, again, 
professional development, very important, but it can't give 
somebody the capacity that they don't have initially.
    Mr. Castle. Right. Mr. Bailey, obviously my time is up, so 
if you can give a very brief response, that would be helpful.
    Mr. Bailey. Certainly. I think just to reinforce, that some 
of your suppositions about in-service are probably true. I 
think many teachers would concur that there's a high 
variability between a quality content-oriented in-service in 
chemistry, physics or bio in my case, and a teaching philosophy 
quick little update, you know. Some teachers have said the 
passing from life to death in in-service would be 
imperceptible.
    So I think that if a person is a science teacher, in-
services, at least part of the year, should be delivered from 
scientists and engineers. Mathematicians should be in working 
with our math teachers. We shouldn't, you know, graduate from 
college and go into education and not see someone in our real 
content area for 30 years.
    So obviously, there's a balance. I'm not pooh-poohing every 
teaching philosophy course, but content-oriented in-service 
delivered by people that are living and working that in the 
professional world is very helpful.
    Mr. Castle. Thank you. Mrs. McCarthy is next. I yield to 
her for 5 minutes.
    Mrs. McCarthy. Thank you, Mr. Chairman. I thank you for the 
insight that we're receiving, and I have to say, I feel like 
Mr. Boehner, I'm sitting here and feeling like I'm going 
through deja vu all over again.
    I offered a mentoring amendment years ago, and it was 
accepted fully by this Committee. Mr. Goodling was the Chairman 
at that particular point. And I kept bringing back teaching and 
nursing as the same, and they are. No. 1, we didn't get paid 
too much. But No. 2, the difference was, to get into a nursing 
school, you had to under a psychological test. Certainly you 
had to pass your boards. But also, if that school of nursing 
did not produce quality nurses through the state boards, that 
school of nursing lost their license.
    I don't know why we're not thinking about that. You know, 
when my son was going to college or applying for college many 
years ago, he wanted to go to Syracuse, and what he wanted to 
get into, his marks weren't high enough. Now obviously this was 
a real shaker for me, but it was advised by the guidance 
counsel, oh, just go into the school of teaching. And I said, 
well, what does that mean? Well, if you can get into the school 
of teaching and you stay a few years and you're doing all 
right, you can either be a teacher or maybe we'll get you into 
the other program.
    Why weren't the standards as high? I don't understand that. 
And here's what we're fighting for. But the other thing, too, 
because I spend almost every Monday in my schools, and I think 
a lot of our teachers are doing a tremendous job under very, 
very difficult circumstances, especially in my minority 
schools.
    You have young people coming out of teaching. Now we're 
seeing even older people coming into teaching, and when you 
look at the dropout rates of teachers, they're almost exactly 
as nursing's, mainly because what they're taught at the 
collegiate level, then you get into the field and it's like, 
whoa, what am I doing here? Same as nursing, same with 
teaching.
    So we have to start looking at those things. But we brought 
these all up the last time we reauthorized Higher Education. 
That's what I don't understand. How come nothing--some things 
have changed. But I think one of the other things, too, 
especially for many of us, we have large minority areas that 
have schools that are falling apart, but we also have teachers 
that are dedicated, but they're not taught also to be social 
workers and to deal with the family crises that are going on to 
the schools, and I think that has to come into the curriculum a 
great deal.
    It's very, very hard for someone that's dedicated, for 
someone that wants to be a teacher and then thrown into a 
classroom not understanding the social issues that these kids 
are coming from and how to deal with them. Those are the 
battlefields that we're looking at.
    And I also think it's time for our business community in my 
opinion, because the Federal Government will never have enough 
money, to really start investing in our schools. A number of my 
CEOs on Long Island have done that, guaranteeing scholarships, 
especially in the minority schools, so these kids have some 
hope. Once we gave them hope, their marks skyrocketed. They're 
capable of learning, and they are. And the teachers had new joy 
and new love in it.
    But I would just love to hear your opinion on the 
mentoring. We've heard about it. I don't know why we're not 
doing more of it. That's what makes nursing work a little bit 
better than teaching, because we have a strong mentoring 
program in nursing.
    But we have to have the qualities of our colleges, really, 
they should be standardized. They really should be, and they 
should be accountable for that, because we do give them Federal 
money on that. And I would like your opinion on that.
    Mr. Landgraf. I agree completely with you. I think the 
reason that you're frustrated and public educators are 
frustrated and this Committee might be frustrated that we keep 
saying the same things in terms of improving the educational 
process, is that we need to remember that most of public 
education is funded by local real estate taxes, and so that 
real estate tax base determines how much mentoring there will 
be, how much technology there will be, how much time is spent 
on professional development.
    The problem with that of course is that the more money, as 
Congressman Boehner said, the more money that's in the 
district, sometimes there's an inverse relationship with the 
need to do the mentoring ed technology. So the lower 
socioeconomic cohorts where the achievement gap is most visible 
don't get the funding at the local level to implement what 
appear to be common sense changes in the educational process.
    Mrs. McCarthy. I agree with that. My minority schools have 
absolutely no tax base. So the only monies they technically get 
are taxing the families that can't afford it, so they vote down 
every school bond that is around there. And then when you look 
at the formulas, especially in New York State, I don't know how 
they do those formulas, because some of my wealthiest schools 
will get an awful lot of money, and the poorest of the schools, 
not enough to survive on. I don't understand how they do the 
New York State formula. But it's complicated, and I know that. 
I also know it's political.
    Ms. McCown. I'd just like to add that I think one important 
aspect of schools of education and holding them accountable, 
and my colleague, Ross Wiener, referred to this, but there's 
got to be an approach that's outcomes-based, so it's not just 
the input in terms of how individuals do on exams, although I 
don't think that's unimportant, frankly. I think that's fairly 
important.
    But I do think that schools of education have to be in a 
better position. And in many cases they can do this already. 
There's not--the data is lacking in some cases, but there is 
data out there, and there are ways of understanding how 
teachers are doing as it relates to individual student 
performance and student performance on a class basis.
    And schools of education have to be held accountable for 
outcomes. In other words, how are their students doing who are 
going into the schools? And that is where you really get at the 
issue of quality; whether or not they're actually succeeding 
when they go into schools. Then they can change their 
curriculum around the needs based on--
    Mrs. McCarthy. And I agree with you. Because you can have 
the brightest person in the world go through a school of 
nursing, but if they can't apply it to the clinical, they fail 
out.
    Ms. McCown. Right.
    Mrs. McCarthy. Hopefully they fail out before they ever get 
onto the floor of a hospital. The same thing for teaching.
    Ms. McCown. And again, the student performance piece is 
critical here. There are lots of other ways of measuring 
performance, but the student performance piece has got to be a 
key indicator.
    Mr. Wiener. Could I just very briefly follow up on those 
comments? I think you've recognized that far too many teachers 
are put into the classroom after their programs to sink or swim 
far too much on their own.
    And I just wanted to provide you with at least one 
initiative that's trying to deal with that and try to get 
higher education to step up to its responsibility to be a 
partner in that, and it's a project at the Carnegie Corporation 
of New York that has--it's involving right now 11 schools of 
education, and these schools vary tremendously in terms of the 
students they serve, their size, their prominence as programs, 
but they've all committed to two things; first of all, 
measuring their success, as we've heard about, in terms of how 
effective their teachers are once they're in the classroom.
    But second, they've also committed to really being an 
ongoing resource for the teachers that they graduate from their 
programs. And so it provides another support for those 
teachers. Because sometimes, the supports that are provided by 
the district can seem sort of high stakes supports. That is, 
you have to acknowledge to your own supervisors that you're 
really struggling and that you need help, and that might be 
uncomfortable. So the university that graduated you should also 
feel some responsibility for helping out.
    So I just want to, you know, a couple of members have 
acknowledged the frustration of keeping on coming back on these 
issues. I think it's important to recognize this is, it needs 
to be a long-term commitment.
    The 1998 reauthorization of the Higher Education Act is 
starting to push some advances, and you've taken some steps in 
your reauthorization draft to advance that again. The No Child 
Left Behind teacher quality provisions are just about 2 years 
old. They will start to make a difference, but it will require 
sustained leadership from this Committee and from Congress.
    Chairman Boehner. The chair recognizes the gentleman from 
Nebraska, Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman, and I thank you for 
being here today. I know Mr. Bailey mentioned some of the 
concerns that you were running into, and I do work with a lot 
of rural schools and I do see some regulations that have 
softened the blow a little bit regarding multiple subject 
teaching and paraprofessionals.
    But one thing that I have observed out in a very rural area 
and other areas is really concern about the special ed 
standards. It seems to be rather universal, and hopefully those 
things can be addressed.
    Mr. Landgraf, I would like to--I'm assuming you're involved 
with SAT. Is that right? And I know that the scoring was 
changed, I don't know how long ago, 15 years ago or something 
like that, maybe longer. But what do you see happening in terms 
of basic understanding on the part of students? Is it going up, 
going down? I know for a while it went down. Where do you see 
things headed?
    Mr. Landgraf. The SAT was re-normed, but it's still 
currently the same basic test of verbal reasoning and 
mathematical reasoning. But what you're seeing is an increase 
on SAT scores, a slight increase in mathematical and verbal 
reasoning.
    Please remember, of course, that the SAT is perhaps a poor 
surrogate for outcomes measures, because the people who take 
the SAT are self-selecting students who are planning on going 
on to college.
    So that the SAT is an important measure, but I don't think 
measures appropriately the outcomes of public education in this 
country because of the number of people who do not take the 
SAT.
    Mr. Osborne. I understand, and yet we do see I think a 
larger proportion who are going to college, so if they're 
headed in the right direction, that's encouraging. I used to 
battle SAT all the time when I was a coach and trying to figure 
out how we could get a guy to a certain level.
    Mr. Wiener, or any others, you mentioned no sanctions and 
No Child Left Behind for states not implementing how they 
qualify teacher standards. In other words, apparently there's 
no specific sanctions. We're saying, well, we think you ought 
to do this.
    Are you recommending or do any of you recommend any 
particular sanctions or any particular methodology of getting 
greater compliance on the part of the states?
    Mr. Wiener. Well, let me distinguish first, because there 
are potential sanctions for failing or refusing to implement 
the teacher quality provisions. That is, as a condition of 
their Federal funding, states have agreed that they will both 
set definitions, set goals for increasing, improving teacher 
quality and then publicly report on their progress.
    States retain discretion to set the standards that they use 
to measure whether they're making that progress, to measure 
whether in fact any particular teacher is highly qualified. 
They don't have the discretion to simply say, well, we don't 
want to undertake that process.
    Now it's very important the definitions that states use, 
and Congress has not decided to get into qualitatively setting 
those standards or demanding particular standards from the 
states. But I do think it's important that Congress and the 
Department of Education really watch that process carefully. 
Because, again, it does matter tremendously how we define who's 
qualified to teach.
    And so I think that it's important both to show leadership 
and to help states to recognize the importance of setting those 
standards at a place where they really are sure that the 
teachers they have in their classrooms can help students really 
meet the state standards.
    In far too many cases right now, those standards are simply 
too low, and they will need to be raised. And I think that the 
Federal process right now, the Federal law, really incentivizes 
states to recognize those problems and work on them.
    Mr. Osborne. Well, I share some of the concerns you 
originally expressed, because in some cases you can set the bar 
so low that you're going to look pretty good. And we see a lot 
of variance in where that bar is set state by state. It's just 
like safe and drug-free schools, you know. Some schools are 
safe and they lose three or four kids a year to murder.
    And so, anyway, last, we talked a lot about mentoring 
today, and I guess I would just like to just ask you who does 
it and how does it work? I know you're talking about other 
teachers, but teachers are crammed for time. And we hear all 
the complaints about, well, we've got all these additional 
burdens put on us now. So how do you see that working 
effectively? Any of you.
    Ms. McCown. I'll just touch on it very quickly. I think the 
point here is that teachers can be the best mentors, and what 
this allows for is for individuals who are interested in 
continuing to teach but also have some ambition to take on 
broader responsibility, this offers them an opportunity to work 
with their colleagues on refining their craft.
    So I think it should be teachers, and those teachers should 
be given the time necessary to do that. They should also be 
given some increase in salary as a result of taking on 
mentoring responsibilities.
    The induction process is similar, and that is that schools 
have to set up an opportunity so that new teachers who come 
into the building do have a chance to be monitored, to be 
mentored, to be coached by an experienced, good teacher. And I 
think that's really important.
    This is not just about somebody who's been in the classroom 
or been in the school for 10 years. It's about somebody who has 
proved that he or she is a good teacher, and that's based on 
student outcome.
    So there is a financial issue here, there's no doubt about 
it. But I think it's important both in terms of encouraging 
bright and ambitious people to stay in teaching, but I also 
think it's critically important for new people who go into 
teaching. And this really provides a different environment in a 
school.
    And right now, a lot of the assumption is that people are 
going into schools having had a student teaching experience or 
some kind of experience that they were offered the opportunity 
to get some coaching on. In many cases, that's not the case. 
And in fact, schools really--all professions, most other 
professions, provide some kind of mentoring and induction for 
new employees, and teaching should be similar.
    Mr. Osborne. Thank you.
    Chairman Boehner. The Chair recognizes the gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. I ask unanimous 
consent for members to be able to submit questions in writing.
    Chairman Boehner. Without objection, so ordered.
    Ms. Woolsey. All right. Thank you very much. I'd like to 
ask Mr. Landgraf about--I want to follow up on this mentoring 
and induction for new teachers. It's my understanding that in 
Japan, the first year a new teacher educated to be a teacher 
spends 1 hour teaching without support. The next year, possibly 
a half day, and the third year in the classroom alone. What a 
difference. We take our new teachers and we throw them into the 
toughest, most challenging classes in the country and then 
wonder why, one, they fail, and/or two, they say enough of 
this. I'm not staying around.
    So I want to know, how does No Child Left Behind help 
bridge that gap?
    Mr. Landgraf. Well, No Child Left Behind helps in that it 
sets a standard for teachers and the requirement to produce 
outcomes, as Ms. Gaynor talked about.
    Ms. Woolsey. Well, OK. I'm going to interrupt you because 
we've heard this. I don't need you to repeat this. So the 
standard--our teacher doesn't meet the standard because we're 
asking too much of that teacher. How is No Child Left Behind 
filling that gap?
    Mr. Landgraf. And No Child Left Behind will not. At the 
local state level--because I happen to agree with you. I lived 
in Germany and Switzerland for a number of years, and in both 
of those countries you had two distinct levels of teaching 
professionals. You had a master teacher and then you had 
basically an apprentice teacher.
    So I believe that the way we do it is inappropriate. But 
the only way to move toward what you're describing is to 
provide the schools with more resources and time to allow for 
teachers to have the flexibility to have progressive 
professional development before they become fully certified 
teachers.
    Ms. Woolsey. Well, it was my understanding--this is just a 
comment--that No Child Left Behind, when we found something 
that was not working, would fund the change so that we could, 
you know, make it better.
    Now I need to ask Mr. Bailey, then, Mr. Wiener, I'll let 
you respond, too. I think that, Mr. Bailey, you could talk to 
me about how No Child Left Behind is helping schools where 
there's a great difference in the number of non-English 
speaking children, the number of families in transition that 
come in and out of the school, depending on where that school 
is located, where there's more special ed kids, where there's--
just needs that many schools don't have.
    So now how in evaluating the teacher, how are we taking 
into account through No Child Left Behind those challenges?
    Mr. Bailey. Well, I think the main thing that you're 
referring to is that under No Child Left Behind, really for the 
first time in many states--now, granted, some states have been 
doing this all along--but nationwide, it has not been the case 
that we have been tracking the progress of individual subgroups 
of children. We've looked at a gray average. We've always done 
that. We've looked at the gray average of how's that school 
doing on average.
    And, obviously--and, again, I don't want to place blame--
but in some school systems, they've been able to neglect or to 
hide small student subgroups in that gray average, and some of 
the ones you just mentioned--minority or LEP or even special 
ed. In fact, in many states, they've said we don't test. We 
don't look. We don't hold accountable. We're going to try to 
meet their needs.
    Now No Child Left Behind does really for the first time 
nationwide say we want to see academic progress with all 
subgroups of students. So in that regard, you ask what does No 
Child Left Behind do to help them? It shines the light of 
accountability on every child in every subgroup.
    Ms. Woolsey. Well, OK. But you have a school that has kids 
transitioning in and out. That school is--because then they 
test lower possibly, and they do. They can't help it. That 
school is labeled loser. I want to know how No Child Left 
Behind is making, I mean, not putting a label on that school 
and those kids?
    Chairman Boehner. If the gentlelady would yield.
    Ms. Woolsey. What? I don't want your answer.
    [Laughter.]
    Chairman Boehner. The law, for schools that aren't making 
adequate yearly progress--
    Ms. Woolsey. Yeah?
    Chairman Boehner. It describes those schools as in need of 
improvement. And we could help all schools. We could help 
people understand that these are not failed schools. They are 
schools in need of improvement.
    Ms. Woolsey. Well, Mr. Chairman, my schools are telling 
me--and they're good schools--that they aren't feeling--they 
feel that they're being labeled and not helped as they should 
be. And these are not bad schools. I have suburban Marin and 
Sonoma County. Good grief.
    [Laughter.]
    Mr. Bailey. Ms. Woolsey, just one comment. There is one 
area where I think the Department of Ed just in the last month 
has identified, they've heard from schools and from states, 
this is a problem for some students that are coming in and 
going out.
    The 95 percent participation rate requirement for testing 
has been amended to allow an averaging over 3 years. In other 
words, the complaint from many schools was two kids in that 
subgroup were gone that day, and now I'm at 94 percent or 93 
percent, not at 95. And so there was just a common sense 
allowance of averaging that over 3 years in order to get that 
participation rate.
    There were some students that were exempted if they 
couldn't be there for testing for medical issues, et cetera. So 
it's one small area where I think the Department is trying to 
respond.
    Ms. Woolsey. Well, all right. OK. Mr. Wiener, you wanted to 
respond to me.
    Mr. Wiener. Yeah. I just wanted to at least provide you 
with two specific provisions in the law that are intended to 
address exactly the problem that you've raised.
    When schools are not meeting their goals for having enough 
qualified teachers, the law creates a presumption that that is 
a problem of district, school district policy and state policy 
that is not responding adequately to the needs of that school.
    Every year, principals are supposed to certify in writing 
and for the public record whether or not they have the 
qualified teachers they need. This is just with respect to 
Title I schools. School districts and states are then called on 
under the law very specifically to work with those schools and 
create plans to help get them more teachers.
    And then finally, I just want to mention one very specific 
provision, and it's at Section 1111.B.8(c) of the No Child Left 
Behind Act. And it calls on states to end the disproportionate 
assignment of inexperienced, unqualified and out-of-field 
teachers to poor and minority students.
    Now we have not seen a lot of progress implementing that 
provision, but within it, there is a tremendous amount of 
authority and responsibility and just simply moral 
responsibility to do better by these kids.
    Now we need to see better implementation of that, but the 
law itself very specifically responds to it.
    Ms. Woolsey. OK. So--
    Chairman Boehner. The gentlelady's time has expired.
    Ms. Woolsey. Well, Mr. Chairman, can I just say what I'm 
hearing them say is No Child Left Behind will work if we 
implement it. And part of implementing it, as Ms. McCown said, 
is funding it.
    Chairman Boehner. The chair recognizes the gentleman from 
Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. I thank 
you all for your testimony. In listening to all of you talk 
about the teacher quality provisions, I think we all agree that 
they're essential provisions.
    In recent weeks, in the past couple of months, there have 
been some provisions of No Child Left Behind that I think 
reasonable people have said where the regulations had 
unintended consequences, and the Department of Education has 
fixed some of those.
    But I also hear some of you saying that in some areas--you 
talked about gaming the system--my question is, if you could 
rewrite No Child Left Behind based on what you know now, are 
there areas where you would be more prescriptive to prevent the 
kind of game playing you're talking about, understanding that 
we all want to make sure that states have flexibility and are 
allowed to be creative, but are there areas that you would 
recommend that be revisited where you think in order to get the 
intended effects of the teacher quality provisions, we need to 
be more prescriptive?
    Mr. Bailey. I will give a quick and brief answer rather 
than explore everywhere that very good question might go. Right 
now if you were to ask teachers and superintendents and state 
commissioners of education if they would like NCLB to be more 
prescriptive, I could hear it through the walls right now, the 
resounding answer.
    I think that NCLB has tried to do a balancing act of saying 
we expect high standards, we expect some accountability. We're 
leaving a lot of the details and criteria up to the states to 
develop a lot, really more so than what I imagined when I first 
saw the law. And I think to be more prescriptive than that at 
this point would be counterproductive.
    There clearly are areas that are going to continue, special 
education is going to continue to be an issue. We're looking 
forward to the reauthorization of IDEA and hopefully some of 
the issues addressed in that legislation. But more 
prescriptive? I think not.
    Mr. Van Hollen. Anybody else? I mean, I know that that's--
you know, I know that's the response that we would get. But one 
of the issues with No Child Left Behind which many of you 
raised is the inconsistency in terms of the application and 
seriousness with which you think some states and local school 
districts are taking it. And I guess the question is, No Child 
Left Behind was rightly written in a way that provides a great 
deal of flexibility, but if you've got certain, you know, parts 
of the system that are not taking it seriously, how do you deal 
with that? And I think we all agree, and the Chairman made a 
very eloquent opening statement and his first question 
obviously, you know, underlined a degree of frustration that 
even with this law in place, things are not necessarily moving 
that quickly, and we need to give it time.
    So, you know, you've all been out in the field. As I 
understand your answer, I don't know if any of you others 
would--is there anything you would change to reinforce the 
teacher quality provisions in No Child Left Behind? In the law 
itself or the regulations.
    Mr. Landgraf. I think part of the problem in answering the 
question is that NCLB is an appropriate national Federal 
attempt to improve standards, but it's being implemented at a 
local level, which is, as you know, what we do in this country. 
The problem is that some states have a different view of how to 
implement, and some localities have a different view of 
implementing. I don't think I would measurably change No Child 
Left Behind.
    I do think it's appropriate as we gain experience with No 
Child Left Behind to do the sensible thing, which is alter some 
of the sanctions as we move forward so that we're not 
inadvertently creating unintended consequences to the Act.
    Mr. Bailey. If I could follow up for one quick second. 
Without recommending changes in No Child Left Behind, I wanted 
to give some hope that there are several states--I had talked 
about the variability in the HOUSSE provisions, and some were 
very high and others were taking a lower approach.
    At least three states--Tennessee, Kentucky, and Oklahoma--
have included in their HOUSSE provision the option of letting a 
teacher say my student achievement data, the increase in test 
scores that I'm able to provide these students--I'm not talking 
about being held accountable for something that happened at 
home or an earlier teacher did. Where is the child when they 
come into my classroom? What am I able to do with them over the 
course of that year that I have them under my care?
    And allowing teachers to use that success of student 
achievement data which is clearly objective, that's what we're 
headed for--not an indirect measure of mentoring time or this, 
but a direct measure of student achievement--I think we're 
going to see that more and more around the country without 
necessarily having to change No Child Left Behind. That's just 
going to happen because the data is there.
    Ms. Mitchell. I'm not sure if this qualifies, but listening 
to the scoring, constantly stating that is the way that we can 
look at teachers and their performance and their 
qualifications, there's also another way to look at how the 
performance in a classroom and a teacher works, and that is 
through portfolios. It's not just through test scores.
    All students are not test takers, you know, and then you're 
not sure what happens the day the child takes a test. They may 
have been performing from the day they walked into that class 
ongoing, and then when the test comes, they're low.
    I have to share with you that I came from a SIR school that 
is off the SIR list and we're now on corrective action. It is 
an ongoing process working together with teachers to get the 
better from our students.
    I really--I have a difficult time sitting here as a teacher 
listening to test scores, and it's not the end all. And we do 
have a very transient population. And as Ms. Woolsey stated 
earlier, that you're looking at that school as that's a bad 
school, and many teachers did look at our school as we weren't 
doing our job, and we worked very hard. And to get off the SIR 
list, I really felt that was an achievement that our school 
worked on together--mentoring and professional development. I 
just don't think scores are the end all, and we have to look at 
ways to share how the teacher is working and their quality of 
work that they're putting forth in that classroom.
    Chairman Boehner. The chair recognizes the gentlelady from 
Georgia, Ms. Majette.
    Ms. Majette. Thank you, Mr. Chairman. And I'd like to thank 
all of the witnesses for being here today and for your 
dedicated service and the work that you're doing to ensure that 
every child is able to have a good education. And I certainly 
appreciate particularly, Ms. Mitchell, your work in the public 
schools in Staten Island.
    I'm a graduate of the public schools of Brooklyn, New York 
and probably quite a long time before you began teaching. But I 
certainly appreciate the challenges that you have in terms of 
the diversity in the area and being able to persevere despite 
the low pay and the different circumstances that you're 
confronted with.
    So I'd like for you just to speak for a moment about, in 
light of all of that and in light of your experience, what is 
it that we can do as a Committee, as a body, as a society, to 
encourage more people to go into teaching and to support those 
teachers once they get there?
    And what I hear in my district--I represent Georgia's 
Fourth District, which is suburban Atlanta, and it's the most 
culturally, probably, and also is economically diverse district 
in the state of Georgia. But what I hear from the teachers is 
that they want to be involved and they want to have greater 
education. They want to be able to have better training and to 
expand their horizons, but they don't have two things. One is 
time, and the other is money.
    In some of the areas they're saying that they're required 
to pay for classes as opposed to getting support for those--
financial support for those classes, and they spend so much 
time in the classroom that they almost feel as though they 
don't have time to take off or they're not given time to take 
off to do the additional training that would be helpful to them 
and necessary in some ways under the Act.
    So how do you think we ought to be able to address that 
issue and to inspire people to go into teaching as well as 
giving them the support that they need once they are in that 
environment?
    Ms. Mitchell. Honestly, that's a difficult question. I can 
share with you that my husband is kind of tired of me going to 
professional development on end, and when I come home, my books 
are all over the bed. And he's wondering, does he have a wife.
    I really love educating. I really don't know the answer to 
how we can get other educators to come into the field. I know 
that we have really looked bad upon this election year. 
Teachers are not doing their job. We have low performing 
schools. Students are coming out not reading, not writing. So 
it's really difficult to share that I know that coming from my 
household raising three daughters, that each one of them have 
attended college, that that is only one way that I could talk 
to other people around me to try to get them to want to come 
into education.
    We have Take Our Daughters To Work Week, but, you know, 
they're coming out of the school thinking that other jobs are 
more important. So I'm not sure how we can look at teachers as 
being important and bringing daughters or sons to work. That's 
a very difficult question for me to try to summarize and figure 
out a way to bring more people into the field.
    Ms. Majette. Thank you. Ms. McCown?
    Ms. McCown. A couple of things. One, it obviously is a 
challenge to recruit people to go into teaching now because, 
one, it's not a field that is necessarily viewed as 
prestigious. And so people who are young and ambitious and want 
to be recognized for their good work don't view teaching as a 
place that they can do that. And I think that's critically 
important.
    I also think that the whole notion of not really being able 
to distinguish yourself in teaching is difficult. We all, as 
teachers, I think we all benefited greatly from the 
gratification you get of when young people say to you, I've 
learned or a lot, or when you have a great class. There is 
nothing quite like the feeling.
    But as a whole, teachers, the teaching profession is not a 
profession that recognizes excellence. It's not a profession 
that really says to somebody who is young and ambitious, if you 
want to go into a field where you're going to be recognized and 
you're going to be honored for the work that you've done both 
figuratively and literally via money, it tends to turn people 
off.
    And I think on the flip side when good teachers are right 
next to individuals who may have been teaching for 20 years or 
so but are not doing a very good job and that's obvious, that's 
also a turn off. So I think those are a couple of things that 
can be dealt with.
    Chairman Boehner. The chair recognizes the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. I thank the chair. Thank you for having this 
hearing, and thank all of you for testifying here.
    I wonder sometimes if all we're trying to do at the Federal 
level, if we're ever going to be successful so long as 
everything that we put in our statutes requires implementation 
at the local level.
    Many of the things that were said here today I think 
generally we get the feeling that people want to move in that 
direction, but we wind up with a funding problem on the local 
level is one thing, and with a variation of feeling about how 
much they want to implement, depending from district to 
district.
    Somebody talked earlier about have better distribution of 
qualified teachers to more challenging schools or districts. We 
don't put any teeth in this law to do that. We just hope that 
local communities are going to want to do that or states are 
going to want to do that, and we don't see an awful lot of that 
happening.
    But we want to pay teachers more. But we then rely on a 
system where property tax picks up a lot of the funding of 
local schools, and people don't want to override limitations on 
their property tax laws.
    How are we going to overcome any of these things unless we 
put some stronger incentives or more funding at the Federal 
level or some requirements and money at the Federal level on 
some of these? How are we going to overcome the fact that we 
don't seem to have anything except a very local implementation 
of these and sometimes hits and sometimes misses?
    Mr. Landgraf. If I could answer. I think you might be 
harsher on yourself than is necessary. I think No Child Left 
Behind is an extraordinary initiative. It took great courage on 
the part of the Congress.
    I think it's important to recognize that this is a very new 
initiative in public education. We're beginning to see some 
meaningful changes occur at the local level. And as long as we 
are not going to Federalize our national public education 
system, you have to rely on localities to implement.
    But No Child Left Behind is an extraordinary initiative, 
because it provides very clear outcome requirements. So my 
answer to you, Congressman, would be I think in the near term--
not forever, not, you know, we don't have to wait too long--
you're going to see meaningful changes in public education.
    Mr. Tierney. Do you think we're going to see teachers 
getting paid at the levels we expect them to be paid in order 
to make this profession a desirable one for people entering the 
job market?
    Mr. Landgraf. Yeah. I think as teacher shortages become 
more and more a reality in this country, as the outcomes 
measures that are being required are going to be more and more 
dictating of real estate taxes, you're going to see teachers 
get paid for outcomes-measured incentives and higher salaries 
for entry-level teachers.
    Mr. Chairman, I apologize, but I need to leave for another 
appointment. So thank you very much for the opportunity to 
testify.
    Mr. Tierney. Thank you. Let me also--talking about some of 
the requirements on teaching, there's a bill that we had put 
together called the Alternative Paths to Teaching that tried to 
meet the level of proficiency in a teacher by having them 
make--make sure that they have a proficiency level in their 
subject matter, get some mentoring when they start teaching, 
get some professional development, but also requires them to 
take some instruction in pedagogy and, you know, methodology 
before they get into the classroom.
    In Mr. Gerstner's report, ``Call To Action: Teaching At 
Risk,'' they talk about programs where liberal arts graduates 
without formal education coursework are put into the schools 
and they say that they are in turn doing as well or better than 
other teachers, never having had the pedagogy, the methodology 
course or whatever.
    What are your feelings on that? Do we need to take 
alternative path teachers and give them some background in 
methodology and pedagogy in the classroom, or do we not?
    Mr. Wiener. If I could try and answer that, and in part it 
goes back to your last question, I think moving forward we need 
to--public education needs to become much more sophisticated 
about distinguishing between effective teachers and ineffective 
teachers.
    Until you can do that, you cannot answer the question that 
you've posed. And it's an important question. It's one we need 
to begin to answer. What training and experiences, what 
background in pedagogy really is necessary to help a teacher 
really teach students to high standards?
    Mr. Tierney. So we don't know that with all the work that 
we've done and all the research that's been out there, we can't 
answer that basic question yet?
    Mr. Wiener. The answer, I'm afraid, is no. We've gotten 
much better at recognizing that there is in fact tremendous 
variability in how effective teachers are. That recognition 
itself is an advancement in the profession. Now we really do 
need to extend that work and to unpack what's inside those 
results and to really understand better who our best teachers 
are and what went into helping them be as good as they can be.
    There are some places that are doing that. Tennessee has 
perhaps the most advanced system, the value-added assessment 
system in Tennessee. There are other districts and states that 
are working toward that. The Ohio initiative that I mentioned 
will be coming to understanding that a lot better.
    And I think one place that Congress could really advance 
this agenda is in both demanding value-added data systems and 
then in supporting their development and implementation.
    Chairman Boehner. The chair recognizes the gentleman from 
New Jersey, briefly.
    Mr. Payne. Thank you very much. And briefly, since the 
bells are ringing, I would just certainly like to commend the 
panel. What I heard I was very impressed with. I would 
certainly like to commend the last lady standing who is the 
only teacher here and to be there in a classroom. That's 
tremendous. I'm a former elementary and secondary school 
teacher, and I do know, and I would probably still be there if 
I didn't get elected to Congress.
    But the system, when you're good, you know, and you're 
still in a classroom--I have a daughter who has been teaching 
in the same school for 18 years. And when you're good, people 
wonder, well, what's wrong with you? You're still teaching the 
same class. My daughter has to defend herself for still being 
the kindergarten teacher at Camden Street School, where she's 
been all these years.
    And the system--and it's just natural. I mean, here we have 
Mr. Bailey, and the little bit I've heard, I can certainly 
understand why he was the National Teacher of the Year. And he 
would be fantastic in some little Virginia classroom. But, you 
know, he heads, you know, national projects.
    So the system itself, a good teacher becomes a department 
head, assistant department head, moves up through the system, 
assistant secretary, assistant superintendent. So somehow we've 
got to do this value-added to the good classroom teacher 
because, to be honest, I bet you enjoyed that little 
classroom--I'm not going to put words in your mouth. But I know 
I enjoyed the classroom more than I did when I started getting 
bumped upstairs.
    And so we've got to somehow figure out how we can put the 
status, continued achievement of classroom teacher. Shouldn't 
feel that something's wrong with you because you're not the 
principal. I mean, we're going to have to have principals and 
we're going to have to have people leading national programs 
like you are. But somehow we've got to enhance the local 
classroom teacher.
    Finally, listening to--I'm in New Jersey so I get the New 
York radio and TV, and the dilemma with Mayor Bloomberg saying 
there's going to be a test for third graders. If you don't pass 
it, you stay back. Parents are talking about boycotting. Kids 
are saying they couldn't sleep for a week. This whole 
traumatizing of these third graders, you know. We've got to 
figure out a better way of it than just that 1 day means all.
    I think there's a lot of things that have to happen with 
this No Child Left Behind. I think it's a good concept. But 
when it was reported that there's a $25,000 per student in some 
part of Westchester County as opposed to $12,000 in another 
part of the same county, and in New Jersey, Cherry Hill had 
about $12,000 compared to Camden, which was $6,000, how in the 
world are you going to be able to have this equal outcomes?
    The charter schools in New Jersey, by law you can't have 
more than 18 students in a classroom. And I said, fantastic. 
Why don't we do it for the public school system? Oh, well, we 
can't afford that.
    So we've got to be able--and I know time is running out. 
We'll hear another bell. Don't worry. We can make it. Let me 
just say I appreciate the opportunity to get that on the record 
and certainly command all of you for being in education.
    I yield back the balance of my time.
    Chairman Boehner. Thank you, Mr. Payne. As you heard, we 
have got five votes on the House floor. I thank all the 
witnesses for your excellent testimony and thank all of those 
of you in the audience who have come to participate today.
    This hearing is adjourned.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]

 Statement of the American Occupational Therapy Association, Submitted 
                             for the Record

    The American Occupational Therapy Association (AOTA) submits this 
statement for the record of the April 21, 2004 hearing. We appreciate 
the opportunity to provide this information regarding the relationship 
of qualified occupational therapy/related services personnel to 
improved academic achievement for all students, including students with 
disabilities. It is important for Congress to monitor how well federal 
education law meets its objective of holding states and schools 
accountable for improving educational outcomes. The topic of this 
hearing is critical to a clearer understanding of the factors which 
lead to better academic achievement.
    The recent enactment of the No Child Left Behind Act (NCLB) and the 
pending reauthorization of the Individuals with Disabilities Education 
Act (IDEA) highlight Congressional concerns about children's education. 
NCLB and IDEA are expected to work in concert to help schools meet the 
learning and behavioral needs of children with disabilities. A major 
concern under both NCLB and IDEA is how to best educate students with 
and without disabilities to high standards and how to appropriately 
measure their progress. A key issue is the need for well trained and 
qualified school personnel who are able to appropriately use effective 
instructional practices and other supports to help children learn.
    AOTA agrees with the goal that students should be taught by well 
trained teachers. It is well recognized that high quality personnel are 
directly related to improved student outcomes. AOTA also believes that 
other school personnel, such as occupational therapists, have an 
important role in helping schools improve student achievement.
Occupational Therapy Services under IDEA and NCLB
    Occupational therapists provide critical supports and services to 
teachers and for students and their families. Referred to as related 
services personnel under IDEA and pupil services personnel under NCLB, 
occupational therapists help schools address barriers to learning and 
improve student behavior. Services and supports are provided for 
children, parents and school staff in a variety of ways, and include 
identification, evaluation and assessment; design and provision of 
classroom and testing accommodations; consultation with educators on 
modifying instructional strategies, classroom routines and 
environments; and, collaboration with general and special education 
teachers, the community, and parents.
School-Related Occupational Therapy Personnel Issues
    Discussions about school-based occupational therapy personnel 
issues usually center around three general areas: preparation and 
ongoing professional development, credentialing, and recruitment and 
retention. AOTA frequently hears from its members and state and local 
education agency officials, school administrators, and parents on such 
issues as difficulty recruiting (and retaining) therapists, preparation 
for practice in schools and early intervention programs, inadequate 
salaries, high caseloads and other working conditions (including 
inadequate time for planning and collaboration), and need to use 
effective interventions and practices. AOTA believes it is important to 
note that these issues mirror those raised about teachers.
    Data specific to occupational therapy services in schools are 
limited, especially with regard to personnel issues. In a May 2003 
paper, the federally-funded Center on Personnel Studies in Special 
Education (COPPSE) found that occupational therapy personnel issues are 
complex and often convoluted.\2\ Occupational therapists follow a 
rigorous, well-established process for entry into the profession. They 
must complete specialized entry-level training\1\ in occupational 
therapy, pass a national certification examination, and meet applicable 
licensure, certification or other comparable requirements in each State 
before they can practice. Occupational therapy practice is regulated by 
all 50 states, the District of Columbia, Puerto Rico, and Guam. Each of 
these jurisdictions determines the requirements for not only what 
constitutes occupational therapy, but also who can provide therapy 
services in that jurisdiction. These state requirements apply to all 
settings in which occupational therapy services are provided in a given 
state, thereby establishing a consistent set of standards across 
settings. These entry-level requirements are intended to ensure that 
occupational therapy providers are fully qualified, thus ensuring the 
highest quality of services for students.
    AOTA is now hearing that some local education agencies (LEAs) are 
beginning to apply NCLB's ``highly qualified'' requirements to related 
services personnel. This would require school-based occupational 
therapists and other related services personnel to meet additional 
requirements. Given the nature of occupational therapy preparation, 
AOTA does not believe these additional requirements are necessary in 
order to deem occupational therapists ``highly qualified.''
    Other data indicate continued shortages of occupational therapists. 
An October 2002 report by Project FORUM at the National Association of 
State Directors of Special Education (NASDSE) analyzed related services 
data collected by states\2\. The analysis found that of the 30 states 
that collected data on occupational therapy, 23 states collected 
information on the number of OT vacancies. The analysis did not 
identify how these data are used by state education agencies (SEAs). 
Another study funded by the Office of Special Education Programs 
(OSEP), the Study of Personnel Needs in Special Education (SPeNSE), 
found that, nationally, nearly 800 occupational therapy positions went 
unfilled in the 1999-2000 school year\3\. SPeNSE reports state that it 
is difficult to separate discussions about personnel quality from 
discussions of quantity/adequate supply because, ``as shortages worsen, 
administrators are forced to hire less qualified individuals.''\3\ 
State reported data to the U.S. Department of Education, which is used 
in the Department's Annual Reports to Congress on the Implementation of 
IDEA, illustrate this point: for the 2000-2001 and 2001-2002 school 
years, 188 and 143 individuals (respectively) who were employed as 
occupational therapists in schools were not fully certified. \4\ It 
should be noted that prior to its 23rd Annual Report to Congress 
(2001), the Department included data on vacant/unfilled OT positions--
they no longer do so. Absent better data, it is difficult to ascertain 
to what extent shortages continue to exist and in which states and 
geographic locations.
    AOTA believes there is a significant need for more targeted and 
focused research on occupational therapy issues in educational 
settings. While SEAs are required to ensure that related services are 
available little is known about the number of children with 
disabilities that receive related services and the type and amount of 
services received.\2\ COPSSE identified a number of critical unanswered 
questions in its report\1\. These include, ``what are the `real' 
vacancies for occupational therapy practitioners in the schools? Are 
all students who need occupational therapy services receiving them? 
What factors support or hinder recruitment and retention of 
occupational therapists in schools? What are effective recruitment and 
retention strategies for occupational therapists entering the 
profession and schools as a work environment? What can local education 
agencies do to support the recruitment and retention of occupational 
therapists in education settings?'' Additional studies on these and 
other questions can help ensure an adequate supply of well-trained 
personnel that will benefit schools and all students.
What is Occupational Therapy?
    Occupational therapy is a vital health and rehabilitation service, 
designed to help individuals participate in important every day 
activities, or occupations. Occupational therapy services address 
underlying performance skills, including motor, process, communication 
and interaction skills to assist in the correction and prevention of 
conditions that limit an individual from fully participating in life. 
For children with disabling conditions and other educational needs, 
occupational therapy can help them to develop needed skills within the 
context of important learning experiences and to perform necessary 
daily activities such as getting dressed for physical education (PE) or 
eating lunch with other students, and help them get along with their 
peers at school. Occupational therapy services can help identify 
strategies for teachers and families to use to facilitate appropriate 
reading and writing development.
    Occupational therapy practitioners have the unique training to 
assist individuals to engage in daily life activities throughout the 
lifespan and across home, school, work, play, and leisure environments. 
Services may be provided during only one period of the child's life or 
at several different points when the child is having difficulties 
engaging in his or her daily school occupations, such as when they are 
faced with more complex demands in the classroom resulting from 
increased emphasis and reliance on written output. Occupational therapy 
services may be provided in the family's home; at school; and in the 
community, such as day care and preschool programs, private clinics, 
and vocational programs.
    Occupational therapy evaluation determines whether an individual 
would benefit from intervention. The evaluation looks at the 
individual's strengths and needs with respect to daily life function in 
school, home and community life, focusing on the relationship between 
the client and their performance abilities, the demands of the 
activity, and the physical and social contexts in which the activity is 
performed. The findings of the occupational therapy evaluation inform 
the team of the need for intervention. Occupational therapy 
practitioners use purposeful activities to help individuals bridge the 
gap between capacity to learn and full and successful engagement in 
education, work, play, and leisure activities.
    For example, occupational therapy for infants and young children 
may include remediation of problem areas, development of compensatory 
strategies, enhancement of strengths, and creation of environments that 
provide opportunities for developmentally appropriate play and learning 
experiences. Services for the school-aged child are intended to help 
them be successful in school. Intervention strategies may focus on 
improving the child's information-processing ability, academic skill 
development such as handwriting, and ability to function in the school 
environment. For adolescents, the occupational therapy intervention 
focus is on preparation for occupational choice, improving social and 
work skills, and learning how to create or alter the environment to 
maximize their productivity.
    Occupational therapy is a health and rehabilitation service covered 
by private health insurance, Medicare, Medicaid, workers' compensation, 
vocational programs, behavioral health programs, early intervention 
programs, and education programs. AOTA represents nearly 40,000 
occupational therapists, occupational therapy assistants, and students. 
We thank you, once again, for the opportunity to submit our comments 
for the record.
REFERENCES
    1.  Beginning January 2007 professional entry will be at the 
postbaccalaurate level.
    2.  Swinth, Y, Chandler, B, Hanft, B, Jackson, L, Shepherd (2003). 
Personnel issues in school-based occupational therapy: Supply and 
demand, preparation, certification and licensure. University of 
Florida: Center on Personnel Studies in Special Education. (COPSSE 
Document No. IB-1). Available at www.copsse.org.
    3.  Mueller, E & Tschantz. J (2002). Related services data 
collected by states. Project FORUM Quick Turn Around. Available at 
http://www.nasdse.org/FORUM/PDF%20files/related_svcs_data.pdf
    4.  Carlson, E, Brauen, M, Klein, S, Schroll, K, Willig, S (2002). 
SPeNSE Key Findings. Available at http://ferdig.coe.ufl.edu/spense/.
    5.  Office of Special Education Programs. Part B annual report 
tables. Retrieved from http://www.ideadata.org/arc_toc3.asppartbPEN on 
5/4/04.
                                 ______
                                 

  Letter from the Higher Education Consortium for Special Education, 
                        Submitted for the Record

April 26, 2004
Chairman John Boehner
Ranking Member George Miller
Committee on Education and the Workforce
U.S. House of Representatives
Washington, DC

    Dear Chairman Boehner and Ranking Member Miller:

    Last week you held a hearing titled ``The Importance of Highly 
Qualified Teachers.'' We would like to submit the attached information 
to be included in the hearing record. The attachment is our 
recommendation for the definition of a ``highly qualified special 
education teacher'' and our rationale for the definition.
    HECSE is comprised of 54 universities with doctoral programs in 
special education. Our member institutions are at the forefront of 
teacher education, research and development in special education. We 
work extensively with local and state education agencies to ensure that 
teachers and other professionals have the skills they need to provide a 
free appropriate public education to all students with disabilities.
    We cannot overstate the importance of ensuring that every special 
education student has a teacher who is fully competent in special 
education and in the content matter that they are teaching. We believe 
our recommendation represents a good balance between the special 
education skills and the content skills required, while bearing in mind 
that teacher training for initial certification is time limited. We 
know that there are some who say that we cannot afford to meet high 
standards for special education teachers--that such standards will 
exacerbate the shortage. In reality, lower standards have increased 
teacher attrition thereby worsening the teacher shortage. We take the 
position that we cannot afford NOT to meet high standards for special 
education teachers.
    No Child Left Behind wisely and rightly requires accountability for 
student achievement for special education students. With such an 
expectation comes an obligation to ensure effective instruction. 
Effective instruction can only be provided by a teacher who is skilled 
in both special education and the content matter that they are 
teaching.
    Thank you for considering our views. If you would like additional 
information or have questions, please contact Jane West at 202-289-3903 
or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f19b86948285b186819d9d92df9f9485df">[email&#160;protected]</a>

Sincerely,

Herbert J. Rieth, Professor and Chair
Department of Special Education
University of Texas
HECSE President

                                  ***

    Recommendations for the Reauthorization of the Individuals with 
   Disabilities Education Act Related to the Application of ``Highly 
               Qualified'' to Special Education Teachers

Introduction
    HECSE recommends that the reauthorization of IDEA include language 
stipulating that special educators be subject to the highly qualified 
standards comparable to the NCLB Act, and that all special education 
teachers hold full state certification or licensure in their respective 
fields. Attached is our recommendation for legislative language that 
parallels that used in the NCLB Act. A brief rationale for this 
language follows.
    Determining a definition for ``highly qualified'' in special 
education is not an easy fit in relation to the NCLB provision, largely 
because special education teachers must develop a set of highly 
specialized skills that can be applied to any core academic content 
area. Thus, in contrast to academic content competence, special 
education competence cannot be measured using a paper and pencil test. 
More specifically, special education teachers are expected to have 
highly specialized knowledge, skills, and expertise, as they 
continuously assess student performance to adjust the learning 
environment, modify instructional methods, adapt curricula, use 
positive behavior supports and interventions, and select and implement 
appropriate accommodations to meet the individual needs of students. 
Special educators develop such expertise by completing rigorous 
preparation programs which include extensive, closely supervised field 
experiences. Before entering the profession, these professionals must 
demonstrate their competence through rigorous outcome measures which 
include performance in schools working with students with disabilities. 
With this in mind, we do not support the option of certifying or 
licensing special education teachers by having them pass a test, 
comparable to the NCLB requirement for content area specialists. 
Rather, all special education teachers should be required to complete a 
rigorous preparation program, and demonstrate in field settings the 
highly specialized knowledge and skills that are needed to effectively 
meet the needs of students with disabilities and ensure that these 
students make adequate yearly progress.
    A second consideration relates to our perspective that teachers of 
students with disabilities at the secondary level should not be held to 
a lower standard than their general education counterparts. If special 
education teachers have the sole responsibility for providing 
instruction for students with disabilities in core academic content 
areas in secondary schools, their qualifications should be no less than 
those of general educators. However, as was noted previously, special 
education is not content area expertise; rather, it is knowledge and 
skills that are needed to meet the individual needs of students and can 
be used at any developmental level. With this in mind, it is our 
perspective that it is neither practical nor necessary to require that 
ALL middle and secondary level special education teachers demonstrate 
mastery of an academic content area, in addition to their mastery of 
knowledge and skills in special education. For example, the role of 
many secondary special education teachers is to work with content area 
specialists to ensure that students with disabilities successfully 
master state designated standards. Thus, the special education 
teacher's responsibilities for student learning can often be 
effectively and efficiently delivered through a consultative or co-
teaching role with general education teachers who are highly qualified 
in the core subject area, without supplanting a general educator's role 
in the subject matter area. Requiring that all special education 
teachers demonstrate mastery of academic content areas when they work 
in a consultative or co-teaching role with highly qualified general 
education teachers is not a reasonable requirement1. Furthermore, such 
a requirement would unnecessarily result in a significant increase in 
the shortage of highly qualified special education teachers in 
secondary schools.
    With these ideas in mind, we offer the following language for 
addressing the need for Highly Qualified special education teachers in 
the reauthorized IDEA.
    1.  This perspective is in keeping with the final regulations for 
NCLB regarding special education teachers, which states:
       Special educators providing instruction in core academic 
subjects must meet the highly qualified standard under NCLB. However, 
special educators who do not directly instruct students on any core 
academic subject or who provide only consultation to highly qualified 
teachers of core academic subjects in adapting curricula, using 
behavioral supports and interventions, and selecting appropriate 
accommodations do not need to meet the same ``highly qualified'' 
subject-matter competency requirements that apply under the NCLB Act to 
teachers of core academic subjects (see 34 CFR Part 200, December 2, 
2002)).

                                  ***

   HECSE Proposed Language for IDEA with regard to Highly Qualified 
                       Special Education Teachers

     SEC. 1119. QUALIFICATIONS FOR TEACHERS AND PARAPROFESSIONALS.
    (10) Highly qualified- Special education teachers must develop a 
set of highly specialized skills that can be applied to any core 
academic content area. These skills provide special education teachers 
with the expertise to continuously assess student performance to adjust 
the learning environment, modify instructional methods, adapt 
curricula, use positive behavior supports and interventions, and select 
and implement appropriate accommodations to meet the individual needs 
of students with disabilities. All special education teachers must 
complete a rigorous preparation program, and demonstrate in field 
settings the highly specialized knowledge and skills that are needed to 
effectively meet the needs of students with disabilities and ensure 
that these students make adequate yearly progress. The term `highly 
qualified' for special education teachers means the following:
          (A) All special education teachers- When used with respect to 
        any public elementary school or secondary school special 
        education teacher teaching in a State, means that the teacher 
        holds at least a bachelor's degree and that--
          (i) the teacher has obtained full State certification or 
        licensure as a special education teacher through a State-
        approved special education teacher preparation program 
        (including certification or licensure obtained through 
        alternative routes), and passed the State teacher special 
        education licensing examination, and holds a license to teach 
        in the State as a special education teacher, except that when 
        used with respect to any teacher teaching in a public charter 
        school, the term means that the teacher meets the requirements 
        set forth in the State's public charter school law;
          (ii) the teacher has not had certification or licensure 
        requirements waived on an emergency, temporary, conditional, or 
        provisional basis; and
          (iii) the teacher demonstrates knowledge of special education 
        and the teaching skills necessary to teach children with 
        disabilities through rigorous written and performance outcome 
        measures.

          (B) When used with respect to--
          (i) a special education teacher who is new to the profession, 
        means that the teacher--
          (I) meets the applicable standards in subparagraph (A); and
          (II) has demonstrated, by passing a rigorous State test, 
        subject knowledge and teaching skills in reading, writing, 
        mathematics, and other areas of the basic elementary school 
        curriculum (which may consist of passing a State-required 
        certification or licensing test or tests in reading, writing, 
        mathematics, and other areas of the basic elementary school 
        curriculum. Applies to elementary special education teachers); 
        and
          (III) meets the highly qualified standard of the NCLB Act in 
        any core academic subject areas in which s/he is the primary 
        teacher for middle school or high school students with 
        disabilities (applies to middle and high school special 
        education teachers).
          (IV) the term ``primary teacher'' means that the special 
        education teacher has primary or sole responsibility for 
        teaching middle school or high school students with 
        disabilities in a core academic subject area, and does not have 
        a regular education teacher who is highly qualified in the 
        particular core academic content area working to provide 
        consultative or co-teaching services.

          (C) VETERAN SPECIAL EDUCATION TEACHERS- When used with 
        respect to a special education teacher who is not new to the 
        profession, means that the teacher--
          (i) has met the applicable standard in subparagraph (A); and
          (ii) meets the highly qualified standard of the Elementary 
        and Secondary Education Act of 1965 (Section 9101 (23)) in any 
        core academic subject area in which s/he is the primary teacher 
        for middle school or high school students with disabilities, as 
        defined in subparagraph (B) (III) and (IV).

          (D) Consultative services
          (i) In general--Notwithstanding subparagraphs (A) through 
        (C), when used with respect to a special education teacher who 
        provides only consultative services to a highly qualified 
        regular education teacher (as the term highly qualified is 
        defined in section 9101(23) of the Elementary and Secondary 
        Education Act of 1965), means that the teacher meets the 
        requirements of subparagraph (A).
          (ii) Consultative services--As used in clause (i) with 
        respect to special education teachers, the term ``consultative 
        services'' means services that adjust the learning environment, 
        modify instructional methods, adapt curricula, use positive 
        behavior supports and interventions, and select and implement 
        appropriate accommodations to meet the individual needs of 
        children. The special education teacher may provide such 
        services in a co-teaching or other consultative role.
          (iii) Consultative services--As used in clause (B) (i) (IV) 
        with respect to regular education teachers, the term 
        ``consultative services'' means services related to the content 
        area expertise of a highly qualified teacher in a core academic 
        area. The regular education teacher may provide such services 
        in a co-teaching or other consultative role.
                                 ______
                                 

Statement of Stephanie L. Norby, Executive Director, Smithsonian Center 
       for Education and Museum Studies, Smithsonian Institution

    On behalf of the Smithsonian Institution, I would like to thank the 
Members of the Committee for the opportunity to submit testimony on the 
Highly Qualified Teacher Provisions in the No Child Left Behind Act. I 
am particularly honored to offer suggestions that may aid state and 
local officials as they grapple with how to meet the standards set 
forth in this law.
    As is reflected in the provisions of No Child Left Behind, teachers 
play an integral role in the education of our nation's children. In 
particular, Title II of the Act--Preparing, Training and Recruiting 
High Quality Teachers and Principals--recognizes that one of the ways 
that new teachers can become great teachers, and veteran teachers can 
become even better teachers, is through meaningful and ongoing 
professional development. However, the challenge of ensuring that all 
students have teachers with superior content knowledge and exemplary 
classroom skills is one that local school districts should not have to 
meet on their own. Rather a broad partnership between schools, 
universities, businesses, and nonprofit organizations is essential to 
ensure that these needs are met.
    While schools of education at colleges and universities can and 
should play a central role in the training and professional development 
of teachers, as an Institution devoted to the ``increase and diffusion 
of knowledge'' the Smithsonian is uniquely positioned to provide the 
nation's teachers with additional training opportunities. With 17 
museums, 9 research centers and 140 affiliate institutions nationwide, 
the breadth and depth of our presence in the American scholarly and 
cultural community equips us with an unparalleled array of resources, 
experience, and knowledge that we are eager to share with the nation's 
educators. This commitment is demonstrated through the recent 
inauguration of the Smithsonian's Strategic Plan for Education, a five-
year blueprint that recognizes our unique mandate to engage and inspire 
all Americans with our research, collections, and expertise. Through 
our websites, publications, and programs, the Smithsonian is already 
working with beginning teachers and experienced educators alike to 
offer them more ways to reach and engage their students.
    The Committee may be interested to learn that the Smithsonian is 
already offering professional development opportunities to teachers on 
a regular basis. From daylong seminars on how to integrate primary 
sources into the curriculum, to three-year partnerships to improve the 
teaching of American History, the Smithsonian is actively sharing with 
teachers its wealth of knowledge and expertise.
    Yet the Smithsonian is not only teaching these teachers, it is 
learning from them as well. From the educators who have participated in 
our professional development programs, we have discovered a great deal 
about the kinds of things that teachers want and need to learn. The 
Smithsonian is working diligently to respond to these needs and is 
eager to share our experience with teachers from across the country, 
through programs based here in Washington, D.C., as well as through our 
national outreach efforts. As the Committee examines the ways in which 
states are implementing the new Highly Qualified Teacher requirements, 
the Smithsonian would like to share with you some of the lessons we 
have learned about what professional development programs can and 
should do for teachers and how museums like the Smithsonian can provide 
additional resources and expertise in this area.
    First, we have learned that teachers want to be treated as 
professionals and be considered a part of the scholarly community. Thus 
the Smithsonian strives to treat teachers as ``lifelong learners'' who 
need exposure to the latest research and scholarship in their academic 
disciplines to stay current and to stay inspired. As the home of some 
of the world's foremost experts in history, science, and art, the 
Smithsonian scholarly community can provide classroom teachers with a 
first-hand look at the newest discoveries and discussions, enhancing 
their ability to provide students with up-to-date information and 
ideas. For example, in partnership with College Board Advanced 
Placement, the Smithsonian offers seminars during which teachers and 
curators together examine historical evidence--from skeletons uncovered 
at Jamestown to portraits of our founding fathers. At the National 
Science Resource Center, a partnership between Smithsonian and the 
National Academy of Sciences, teachers learn how to teach science and 
technology to elementary and middle school students. These courses help 
science teachers understand the nature of scientific inquiry and its 
central role in science, as well as use the skills and processes of 
scientific inquiry in the classroom.
    Teachers who participate in our programs also tell us that they 
need more training on how to engage students with diverse needs, 
learning styles, languages, and backgrounds. Since museums like the 
Smithsonian are experienced at making complex concepts accessible to 
diverse audiences from an array of backgrounds, skill levels, and ages, 
this is a natural need for us to fill. In particular, museums can 
provide teachers with the know-how and the materials to incorporate 
primary sources and objects into their existing curricula, making 
learning more visual, more tangible, and more fun for all students, but 
especially those with limited English proficiency or developmental 
disabilities. This expertise in how to use real things to bring alive 
ideas, processes, and information is something that museums like the 
Smithsonian are uniquely qualified to offer. For instance, as part of 
long-term partnerships with school districts, the Smithsonian has 
worked with Montgomery County Public Schools (MD) and Charlotte 
Mecklenburg Schools (NC) to co-develop social studies curricula to 
include hands-on materials. Moreover, several school districts each 
year assign teachers-in-residence to work with Smithsonian educators to 
design collections-based programming for school groups.
    Museum based professional development programs also can foster 
learning communities in which teachers can look beyond school walls for 
ideas and inspiration. As a result, the Smithsonian often serves as the 
meeting place for teachers from across the country, providing them a 
chance to learn from one another, share ideas and techniques, and build 
lasting collaborations. For example, each year the Smithsonian hosts 
``Teacher's Night'' at one of our museums, an open house that 
highlights our programs, exhibits, and resources through workshops and 
demonstrations. This event attracts more than 2,000 teachers each year 
and coincides with similar events in several Smithsonian Affiliate 
Museums across the country. We also endeavor to build lasting 
relationships with the teachers who participate in our programs by 
asking them to help us review publications, offer critiques of our 
programs, and provide expertise in developing new curriculum ideas.
    One other observation that the Smithsonian can offer, which was 
echoed in the testimony of witnesses and committee members during the 
hearing, is that Schools of Education should not be the only outlet for 
the training and development of the nation's teachers. The Smithsonian 
often partners with Schools of Education to share ideas and collaborate 
on better ways to reach teachers throughout their careers. For example, 
the Smithsonian is partnering with Project Zero at the Harvard School 
of Education to research how museums enrich student learning and has 
hosted summer seminars for the Association of Teacher Educators, an 
organization of university professors who train pre-service teachers.
    Lastly, it is clear from the discussion at the Committee hearing 
that America's teachers are pressed for time and resources, and 
therefore need access to content and skills training in ways that are 
more accessible, more convenient and more tailored to each teacher's 
individual needs. Aptly, the Smithsonian is now in the process of 
developing an array of distance learning programs that eventually will 
become a system of ``professional development on demand'' where 
teachers can access training on the subjects they are teaching when 
they are getting ready to teach them. Utilizing the technological 
advances available to more and more schools, the Smithsonian is 
devising ways to offer teachers remote access to our professional 
development programs via videoconferencing and the World Wide Web. For 
teachers who might not have access to Smithsonian programs in their 
communities, or who may not have the opportunity to travel to 
Washington, D.C., on a regular basis, distance learning will open our 
doors to a whole new audience of educators.
    In sum, the Smithsonian Institution is committed to the education 
of all of our nation's citizens and is actively seeking out new ways to 
reach them outside of the typical museum visit. Through our 
professional development programs for teachers, the Smithsonian is 
sharing its expertise and resources with those who need it most, and in 
the process is creating a learning community from which all of us can 
benefit. I hope that these comments prove helpful to the Committee in 
its efforts to improve the education of our nation's children, and I 
welcome the chance to work with you in the future to make that 
possible.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
